     May 5, 2004




Financial Management
Environmental Liabilities Required To
Be Reported on Annual Financial
Statements
(D-2004-080)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
 Additional Copies

 To obtain additional copies of this report, visit the Web site of the Inspector
 General of the Department of Defense at www.dodig.mil/audit/reports or contact
 the Secondary Reports Distribution Unit of the Audit Followup and Technical
 Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




AEC                  Army Environmental Center
BRAC                 Base Realignment and Closure
CTCNORM              Cost-to-Complete Normalization of Data System
DERP                 Defense Environmental Restoration Program
DSERTS               Defense Site Environmental Restoration Tracking System
EPR                  Environmental Program Requirements
FMR                  Financial Management Regulation
FUDS                 Formally Used Defense Sites
FUDSMIS              Formally Used Defense Sites Management Information System
HTRW                 Hazardous Toxic Radioactive Waste
NAVFAC               Naval Facilities Engineering Command
NAVSEA               Naval Sea Systems Command
OEW                  Ordnance and Explosive Waste
RACER                Remedial Action Cost Engineering Requirements
RCTCS                Restoration Cost-to-Complete System
VV&A                 Verification, Validation, and Accreditation
          Office of the Inspector General of the Department of Defense
Report No. D-2004-080                                                        May 5, 2004
   (Project No. D2003CB-0037)

          Environmental Liabilities Required To Be Reported on
                     Annual Financial Statements

                                Executive Summary

Who Should Read This Report and Why? DoD civilians and uniformed officers
responsible for environmental cost estimating and financial reporting should read this
report. It discusses the management controls that are necessary to support financial
reporting of environmental liabilities on financial statements.

Background. According to Public Law 101-576, “Chief Financial Officers Act of
1990,” November 15, 1990, each executive agency shall prepare and submit to the
Director of the Office of Management and Budget a financial statement for the preceding
fiscal year. The Chief Financial Officers Act requires that financial statements prepared
by an agency be audited by the Inspector General in accordance with applicable generally
accepted government auditing standards and also requires the Inspector General to
submit a report to the head of the audited agency. Environmental liabilities and disposal
liabilities are reported on “Environmental Liabilities and Environmental Disposal
Liabilities,” Note 14 of the DoD-wide and individual Service-wide balance sheets.
Contingent liabilities are reported as part of “Commitments and Contingencies,” Note 16.
As of September 30, 2002, DoD reported $59.35 billion in environmental liabilities on
Note 14 and $12.7 billion of environmental related contingent liabilities on Note 16.
Environmental liabilities include estimated amounts for future cleanup of contamination
resulting from waste disposal methods, leaks, spills, and other past activity that have
created a public health or environmental risk. DoD declared, in FYs 2002 and 2003,
environmental liabilities as a systemic management control weakness as defined by the
Federal Managers’ Financial Integrity Act.

This report discusses the reliability of the data and processes used to report
environmental liabilities including identifying and assessing the adequacy of the
management controls relating to the reporting. The report focuses on selected Note 14
and Note 16 items where Military Departments made assertions on the fair presentation
of the amounts reported or where the Under Secretary of Defense (Comptroller)/Chief
Financial Officer requested we review an issue. We reviewed controls over $21.92 billon
of Army environmental liabilities and $10.05 billion of Navy environmental liabilities as
reported on Note 14 through a sampling of 735 environmental liability cost estimates at
28 Army activities and 1 Navy activity. We also reviewed $3.67 billion of Note 16
contingent liabilities attributed as Army and Defense Logistics Agency environmental
liabilities. We performed a detailed internal control review of the Army environmental
liability estimates and the Navy nuclear-powered ship estimates, but did not
perform substantive tests of the reported values of those estimates.

Results. The reliability of the data and processes used to report Army, Navy, and
Defense Logistics Agency environmental liabilities needed improvement. The data and
processes used to report $21.92 billion in environmental liabilities on Note 14 to the
FY 2002 Army financial statements did not have adequate documentation and audit trails.
As a result, Army Defense Environmental Restoration Program, Base Realignment and
Closure (BRAC), and non-Defense Environmental Restoration Program environmental
liability estimates were potentially misstated for the FY 2002 DoD-wide and Army-wide
financial statements (finding A). The Army initiated action to improve controls by
implementing a new feeder system to reduce the possibility of errors.

Although technically complying with existing modeling and simulation requirements,
Air Force and Navy verification, validation, and accreditation reviews of environmental
liability electronic cost estimating systems were performed without comparison of the
estimates to actual costs (finding B). In response to the audit, the Navy and Air Force
initiated action to document comparison of system-generated costs with associated actual
project costs on present and future models.

Although the estimating methodology for the disposal of nuclear-powered ships appeared
reasonable, the controls over a $10.05 billion Navy Note 14 environmental liability
estimate for the disposal of nuclear-powered ships needed improvement (finding C). The
Office of the Deputy Under Secretary of Defense (Installations and Environment) is
developing additional financial reporting policy for environmental compliance, nuclear-
powered ship disposal, and chemical demilitarization for issuance in FY 2004. The
Naval Sea Systems Command is also developing nuclear-powered ship disposal estimate
reporting and control guidance. The Defense Finance and Accounting Service corrected
previously reported errors by re-categorizing a $2.6 billion Defense Logistics Agency
environmental liability as a contingent claim and litigation from civil law on second
quarter FY 2003 and subsequent DoD-wide financial statement Note 16. The contingent
liabilities were related to the potential claims from Defense Logistics Agency fuel
contracts and not to environmental liabilities (finding D).

Management Comments and Audit Response. The Deputy Under Secretary of
Defense (Installations and Environment) agreed to implement guidance to improve the
development, recording, and reporting of environmental liabilities. The Army Deputy
Assistant Secretary of the Army (Environment, Safety, and Occupational Health) agreed
that the Commander, U.S. Army Corps of Engineers, should establish a quality control
program to assess environmental liability processes and controls, but did not agree that
the Army BRAC Office should establish procedures to verify that Army BRAC
environmental liability estimates are accurate and meaningful as required by financial
management regulation and not adjusted because of potential budgetary constraints.
Based on comments from the Under Secretary of Defense (Comptroller)/Chief Financial
Officer we added a recommendation to the Army relating to review of the Army BRAC
program environmental liability estimate (see finding A for detailed discussion of these
recommendations). We request comments from the Army by July 6, 2004. The Assistant
Secretary of the Navy (Financial Management and Comptroller) and the Deputy Chief of
Staff of the Air Force (Installations and Logistics) agreed that the Naval Facilities
Engineering Command and the Air Force Civil Engineering Support Agency issue
guidance requiring that future environmental liability electronic cost estimating system
efforts comply with Defense Environmental Restoration Program Management Guidance
(see finding B for detailed discussion of these recommendations).




                                           ii
Table of Contents

Executive Summary                                                           i

Background                                                                 1

Objectives                                                                 4

Findings
     A.    Army Environmental Liabilities                                   5
     B.    Environmental Liability Electronic Cost Estimating Systems      16
     C.    Navy Nuclear-Powered Ship Disposal Environmental Liabilities    25
     D.    Defense Logistics Agency Contingent Environmental Liabilities   29


Appendixes
     A. Scope and Methodology                                              31
          Management Control Program Review                                34
     B. Prior Coverage                                                     36
     C. Army DERP Active Installation Environmental Liabilities            38
     D. Army DERP-FUDS Environmental Liabilities                           43
     E. Army BRAC Environmental Liabilities                                50
     F. Army non-DERP Environmental Liabilities                            57
     G. Management Comments on Findings A and B and Audit Response         61
     H. Report Distribution                                                67

Management Comments
     Under Secretary of Defense (Comptroller)/Chief Financial Officer      69
     Deputy Under Secretary of Defense (Installations and Environment)     70
     Department of the Army                                                72
     Department of the Navy                                                86
     Department of the Air Force                                           92
Background
    Reporting Requirement. According to Public Law 101-576, “Chief Financial
    Officers Act of 1990,” November 15, 1990, each executive agency must prepare
    and submit to the Director of the Office of Management and Budget a financial
    statement for the preceding fiscal year. The Chief Financial Officers Act of 1990
    requires that financial statements prepared by an agency be audited by the
    Inspector General in accordance with applicable generally accepted government
    auditing standards and the Inspector General must submit a report to the head of
    the audited agency. Environmental liabilities include estimated amounts for
    future cleanup of contamination resulting from waste disposal methods, leaks,
    spills, and other past activity that have created a public health or environmental
    risk. This report discusses the reliability of the data and processes used to report
    environmental liabilities in the DoD Agency-wide financial statements. DoD
    identified, in performance and accountability reports for FYs 2002 and 2003,
    environmental liabilities as a systemic management control weakness as defined
    by the Federal Managers’ Financial Integrity Act.

    Financial Management Regulation. DoD Regulation 7000.14-R, “DoD
    Financial Management Regulation (FMR),” volume 4, chapter 13, prescribes
    accounting policy and principles for measuring and recognizing DoD liabilities
    associated with the disposition of property, structures, equipment, munitions, and
    weapons. The FMR volume 4, chapter 13, also prescribes policy for measuring
    and recognizing the environmental liabilities associated with corrective actions
    and the future closure of facilities on active installations and for the
    environmental response actions at operational test and training ranges on active
    installations. FMR volume 4, chapter 14, prescribes the accounting policy and
    principles for measuring and recognizing DoD liabilities associated with the
    containment, treatment, or removal of contamination that could pose a threat to
    public health and the environment. The FMR volume 4, chapter 14, also
    prescribes the accounting policy for accrued environmental restoration costs for
    general property, plant, equipment, and stewardship land. Furthermore, it
    provides policy for accrued environmental restoration costs for potentially
    responsible party sites. FMR chapters 13 and 14 also identify that cost estimates
    of environmental disposal or environmental restoration activities are subject to
    audit.

    Defense Environmental Restoration Program. Defense Environmental
    Restoration Program (DERP) Management Guidance, September 2001, provides
    program implementation information for environmental restoration at active
    installations, facilities subject to Base Realignment and Closure (BRAC),
    Formerly Used Defense Sites (FUDS), and cost-to-complete estimates and
    financial reporting of environmental restoration liabilities. In addition to the
    DERP guidance, the DERP-FUDS Program Manual, September 1999, provides
    general policy guidance on the execution of the FUDS program. In January 2002,
    the Army Environmental Center (AEC) issued additional environmental estimate
    cost-to-complete programmatic guidance covering DERP active installations and
    BRAC facilities.

    Army non-DERP Guidance. Federal, State, and local environmental laws and
    regulations are the basis for non-DERP environmental project requirements.


                                         1
Estimates for non-DERP environmental projects are entered into the
Environmental Program Requirements (EPR) database. Guidance for developing
and entering projects into the EPR database include: “Policy and Guidance for
Identifying U.S. Army Environmental Program Requirements,” February 2002;
U.S. Army Environmental Program Requirements Catalog 2002, “A Catalog of
Sample EPR Project Submissions and Program Guidance,” August 2002; and the
Environmental Program Requirements Quality Assurance Handbook,
November 1998.

Note 14 and Note 16 of Financial Statements. DoD reports environmental
liabilities and contingent liabilities on the DoD-wide and individual Service-wide
balance sheets. Balance Sheet Note 14, “Environmental Liabilities and Disposal
Liabilities,” details the cost estimate elements that comprise environmental
liabilities. Balance Sheet Note 16, “Commitments and Contingencies,” details the
cost elements that comprise contingent liabilities including environmental
contingent liabilities. As of September 30, 2002, DoD reported $59.35 billion for
environmental liabilities and $12.7 billion for environmental contingent liabilities.
Table 1 outlines the DoD Component breakdown of the environmental liabilities
reported on Note 14 and the environmental contingent liabilities reported on
Note 16.

                Table 1. FY 2002 Environment Liabilities on the
                           DoD-Wide Balance Sheet

                                         FY02 Environmental Liabilities in billions
       DoD Components                      Note 14                        Note 16
 Army                                       $35.08                         $10.10
 Navy                                        15.47                             0.00
 Air Force                                    8.45                             0.00
 Other Defense Organizations                  0.35                             2.60
   Total                                     $59.35                         $12.70


We reviewed controls over $21.92 billon of the $35.08 billion of Army
environmental liabilities and $10.05 billion of the $15.47 billion of Navy
environmental liabilities reported on Note 14 through a sampling of
735 environmental liability cost estimates at 28 Army activities and 1 Navy
activity. We also reviewed $3.67 billion of Note 16 contingent liabilities
attributed as Army and Defense Logistics Agency environmental liabilities (see
Appendix A).

Army and Navy Management Assertions. On January 6, 2003, and June 26,
2003, through management representation letters, the Army asserted that all of the
Army environmental liabilities were reported and presented fairly on the FY 2002
financial statements. Also, on August 9, 2002, and January 6, 2003, through
management representation letters, the Navy asserted that it maintained a sound
methodology for estimating environmental liabilities associated with nuclear-
powered ships and submarines, and that the Naval Facilities Engineering
Command (NAVFAC) had completed verification, validation, and accreditation
(VV&A) of the cost-to-complete system for DERP environmental liabilities.


                                     2
Auditing Standards for Accounting Estimates. The Codification of Statements
on Auditing Standards Section 342 (AU 342), “Auditing Accounting Estimates,”
provides guidance for auditing accounting estimates. Auditors must review and
test management processes to assess the reasonableness of the accounting
estimate. A strong internal control system will help ensure the reasonableness of
an accounting estimate. AU 342 identifies the relevant aspects of an internal
control system including the:

       •   accumulation of relevant, sufficient, and reliable data upon which to
           base estimates;

       •   preparation of the estimate by qualified personnel;

       •   adequate review and approval of estimates by appropriate levels of
           authority; and

       •   comparison of prior accounting estimates with subsequent results to
           assess the reliability of the process used to develop estimates.

Electronic Environmental Cost Estimating Software. Both FMR and DERP
guidance require the use of electronic cost estimating software in most
environmental liability estimating situations. DoD uses two such estimating
software programs: the Remedial Action Cost Engineering Requirements
(RACER) system is used by the Army and the Air Force, and the Cost-to-
Complete component of the Normalization of Data System (CTCNORM) is used
by the Navy.

        RACER. The Air Force and Army use RACER for developing parts of
out-year environmental liabilities estimates and annual budgets. Other DoD and
Federal agencies also use RACER to prepare individual cost project estimates and
to evaluate cost reasonableness of estimates. The Air Force Civil Engineering
Support Agency developed and maintains the RACER system. Air Force Civil
Engineering Support Agency planned and funded modifications, oversaw
preparation of the simulation for use, and configuration management and
maintenance of RACER. Air Force Civil Engineering Support Agency initiated a
VV&A review of the RACER in January 2001. The process was completed in
June 2001. Air Force Civil Engineering Support Agency was the verification and
validation agent and the accreditation authority.

        CTCNORM. NAVFAC developed and maintains the CTCNORM
system. NAVFAC also initiated a VV&A review of the CTCNORM in
March 2001. The process was completed in October 2001. NAVFAC was the
verification and validation agent and the accreditation authority. NAVFAC
reports Navy and Marine Corps environmental liability information derived from
CTCNORM to the Office of the Assistant Secretary of the Navy (Financial
Management and Comptroller).




                                    3
Objectives
    Our overall objective was to determine the reliability of the processes and data
    used to report environmental liabilities on financial statements. We also reviewed
    internal controls and compliance with laws and regulations related to the
    environmental liabilities. See Appendix A for a discussion of the scope and
    methodology and our review of the management control program. See
    Appendix B for prior coverage related to the objectives.




                                        4
                   A. Army Environmental Liabilities
                   The data and processes used to report $21.92 billion in DERP1, BRAC,
                   and non-DERP environmental liabilities on the FY 2002 financial
                   statements did not have adequate documentation and audit trails.
                   Although estimators were properly qualified to perform estimates, the
                   Army did not document supervisory reviews of estimates and adequate
                   quality control programs were not in place to ensure the reliability of data.
                   This occurred because DERP, non-DERP, and BRAC activities were not
                   following guidance concerning environmental liability financial reporting.
                   In addition, non-DERP activities lacked specific implementation guidance,
                   and DERP and BRAC activities lacked effective and reliable controls over
                   feeder systems. As a result, DERP, BRAC, and non-DERP environmental
                   liability estimates were potentially misstated for the FY 2002 DoD-wide
                   and Army-wide financial statements.


Reporting Organizations
           Personnel at active installations, BRAC installations, and U.S. Army Corps of
           Engineers (Corps of Engineers) districts (for FUDS properties) developed and
           reviewed the cost-to-complete environmental liability estimates (estimates)
           relating to future cleanup of contamination resulting from waste disposal
           methods, leaks, spills, and other past activity that have created public health and
           environmental risks. AEC was responsible for collecting, reviewing, and
           forwarding the estimates relating to DERP active installations, BRAC, and non-
           DERP to the Army Assistant Chief of Staff for Installation Management. The
           Corps of Engineers was responsible for collecting, reviewing, and forwarding the
           estimates relating to FUDS to the Assistant Chief of Staff for Installation
           Management. The Assistant Chief of Staff for Installation Management was
           responsible for validating and including the estimates in reporting environmental
           liabilities on the financial statements. (Additional details of Army reporting
           organizations are discussed in Appendixes C, D, E, and F.)


Army Controls Effectiveness
           The Army did not maintain adequate documentation and audit trails to support
           environmental liability estimates for FY 2002. In addition, the Army did not
           document supervisory reviews of estimates and adequate quality control programs
           were not in place to ensure the reliability of data.

           Documentation and Audit Trails. The FMR emphasizes that audit trails for
           environmental liabilities must allow transactions to be traced from the point of
           initiation to the final report. The audit trail must adequately support all
           transactions with relevant documents and source records, including a narrative
           providing sufficient explanation for the basis of the estimate, the date prepared,
1
    DERP locations included active installations and FUDS.



                                                     5
and the preparer name. The FMR also requires documentation must exist at the
time of audit.

Documentation and audit trails permit tracing transactions through a system.
Audit trails allow auditors or evaluators to ensure transactions are properly
accumulated and correctly classified, coded, and recorded in all affected accounts.
Audit trails are also necessary to enable supervisors, other estimators, and
auditors to understand the methodologies used to develop estimates and determine
whether estimates are reasonable and complete. We considered relevant,
sufficient, and reliable environmental liability documentation to be pertinent
project-related documents that supported underlining factors, assumptions, and
estimated costs, including background information, disposal or restoration
strategy, physical units in the estimate, cost per unit, cost adjustments such as
conversion to current year dollars, and significant project changes.

Army Environmental Liability Documentation. The Army did not have
adequate audit trails to ensure that documentation was readily available to support
the underlying assumptions of estimates. Therefore, the Army did not meet the
definition of an audit trail as defined in the DoD FMR. The majority of the Army
documentation maintained at the installation level was not sufficient to support
estimates throughout the reporting process. Table 2 shows that 634 of the
719 Army estimates reviewed did not have adequate documentation to lead
auditors through the entire audit trail.

       Table 2. Adequacy of Environmental Liability Estimates
                  Documentation and Audit Trails

                                 DERP       non-DERP   FUDS     BRAC       Totals

    Estimates Reviewed           231           45      300       143        719

    Estimates without Adequate
         Audit Trails and        184           43      299       108        634
          Documentation



For DERP active installations, 47 of 231 estimates reviewed had an adequate
audit trail that would allow the auditor to trace from the point of initiation to the
final report (see Audit Trails and Documentation in Appendix C). DERP-FUDS
activities provided adequate documentation for 1 of 300 estimates and non-DERP
activities provided documentation for 2 of the 45 estimates reviewed. BRAC
installations maintained adequate documentation for 35 of the 143 estimates.

For example, Headquarters, Corps of Engineers personnel were unable to provide
supporting documentation for $1.1 billion in management and support costs
included in the FUDS related environmental liability reported on the financial
statements (see Audit Trails and Documentation in Appendix D). In another
example, Rocky Mountain Arsenal reported 72 estimates valued at $745 million,
the largest single DERP active installation location. Rocky Mountain used
31 program management estimates derived from a 1995 feasibility study to create


                                        6
the 72 reported estimates. The Arsenal did not maintain records to support
transfer and apportionment of data from the 31 program management estimates to
the 72 reported estimates. As a result, we could not confirm assumptions, cost
elements, and adjustments that comprised the estimates. Rocky Mountain
Arsenal and AEC personnel stated that they were taking steps to revise FY 2003
reporting of the 31 program management based estimates to AEC in place of the
72 RCTCS/DSERTS estimates to allow for an audit trail for the estimates.

Supervisory Reviews. DERP active installation, FUDS, and BRAC activities did
not routinely document supervisory reviews of environmental liability estimates
when reporting environmental liabilities for the FY 2002 financial statements.
The FMR requires organizations that prepare cost estimates to retain adequate
documentation of management reviews. Table 3 shows that of 719 estimates
reviewed at Army activities, only 74 estimates had adequate documentation of
supervisory reviews of environmental liability estimates.

             Table 3. Adequacy of Environmental Liability
                     Estimate Supervisory Reviews

                             DERP     non-DERP     FUDS      BRAC     Totals

 Estimates Reviewed           231         45         300      143      719

 Estimates with Documented
                               0          43          0       31        74
    Supervisory Reviews




DERP Active Installations Supervisory Reviews. For DERP active
installations none of 231 estimates reviewed showed evidence that management
performed and documented adequate supervisory reviews of the estimates.
Evidence existed that supervisors reviewed some estimates; however, there was
no documentation that showed specifically what the supervisor reviewed.
Adequate supervisory reviews would include verifying estimator-prepared
estimates in accordance with financial reporting requirements and the DERP
guidance. DERP guidance section 15.8.2 states that management must retain
documentation of management review. DERP active installation supervisors
stated that reviews mostly focused on reasonableness of estimates and not
whether adequate supporting documentation or an audit trails existed. For
example, the installation action plan for Aberdeen Proving Grounds showed a
supervisory approval of 252 cost to complete estimates by installation
management and headquarters level management. Installation level management
stated that supervisory review did not include verification of critical items such as
documentation and audit trail.

       DERP-FUDS Supervisory Reviews. The Corps of Engineer districts and
the U.S. Army Corps of Engineers Omaha Center of Expertise (Omaha Center)
performed limited supervisory reviews of estimates. The districts reviewed
estimates to ensure that cost allocation met proposed fiscal year funding. The
Omaha Center verified that Formerly Used Defense Sites Management
Information System (FUDSMIS) data were correctly entered and that estimators


                                      7
included all project phases. However, FUDS guidance requires the development
and use of a uniform checklist for supervisory reviews to ensure that estimators
include all appropriate phases in the estimate. Neither the districts nor the Omaha
Center documented supervisory reviews through the use of a uniform checklist in
accordance with FUDS guidance.

        BRAC Supervisory Reviews. Four of six BRAC installations did not
provide evidence of supervisory reviews of estimates. According to personnel at
the installations, the submittal of the estimates to higher-level management was
considered as a form of supervisory review.

Army Quality Control Programs. The Army did not implement adequate
quality control programs to ensure the reliability and accuracy of environmental
liability estimates. An effective quality control program should include
procedures for continual monitoring whether the policies and procedures related
to the standards are suitably designed and are effectively applied. Effective
quality control programs are necessary to aid personnel in identifying errors in
estimates prior to reporting. For example, maintaining supporting documentation
can help ensure that estimators have included costs for all phases of projects or
have used the most recent historical data when developing estimates. In addition,
by implementing supervisory reviews (another element of an effective quality
control program), supervisors may be able to identify errors prior to approving
and reporting estimates. The critical elements of a quality control program
include documentation and audit trails, supervisory reviews, and quality
assurance reviews. Army activities did not implement sufficient internal quality
control programs to ensure they reported complete and correct data.

         DERP Active Installations and BRAC Quality Assurance. Quality
assurance reviews conducted by AEC on DERP active installations and BRAC
estimates were not sufficient to ensure that the accounting standards outlined in
the FMR were met. AEC performed quality assurance reviews on FY 2001
estimates at 41 DERP active installations and BRAC installations. AEC reviews
showed that of the 41 installations, 16 did not use RACER software, 37 did not
have adequate documentation, 19 did not reflect the environmental restoration
strategy, 8 lacked environmental liability estimation training, and 7 lacked
evidence of supervisory reviews. Although the AEC quality assurance review
identified the above deficiencies, AEC did not finalize the results of the review
until late fall 2002. As a result, there was little or no effect for the FY 2002
financial statements on the adequacy of supporting documentation, audit trails
and documentation of supervisory reviews.

Inconsistencies also existed between the deficiencies in the AEC quality
assurance reviews of DERP active installations and BRAC locations and our
review regarding adequacy of documentation and audit trails. For example, AEC
began a quality assurance review of Rocky Mountain Arsenal but omitted
reporting review deficiencies because Arsenal documentation did not provide an
audit trail. AEC did not maintain either documentation of the Rocky Mountain
Arsenal quality assurance review or documentation of the reason AEC omitted
reporting the results to the office of the Assistant Chief of Staff for Installation
Management.



                                      8
    AEC assessments of BRAC installation estimates were inadequate to ensure the
    accuracy of the environmental liabilities. For example, we determined that two
    Fort Ord BRAC cleanup estimates did not have adequate documentation despite
    the AEC review conclusion that the estimates maintained adequate
    documentation. The Army Assistant Chief of Staff for Installation Management
    BRAC Division (BRAC Office) did not perform quality assurance reviews of the
    installations and no formal action was taken concerning AEC findings.

            Non-DERP Quality Assurance. AEC non-DERP quality assurance
    reviews were generally restricted to the information within the database and were
    focused on ensuring that the projects had correct requirements, quality and
    accurate data, and justified funding purposes. The AEC non-DERP quality
    assurance reviews did not include reviews of source documentation or evaluate
    the estimate methodology or audit trail, which are elements required by the DoD
    FMR. Therefore, the reviews could not verify the existence, completeness, or
    valuation of the estimates.

             DERP-FUDS Quality Assurance. DERP-FUDS activities did not
    implement quality control programs at the district or division level. Instead, the
    districts and divisions relied on the Omaha Center to perform quality control
    reviews. The Omaha Center reviews were limited in scope and were completed
    periodically when funding was available. Corps of Engineers districts and
    divisions did not always implement recommendations resulting from the Omaha
    Center reviews.

    Estimator Qualifications. We reviewed estimator qualifications at each of the
    DERP active installations, FUDS, BRAC, and non-DERP locations audited. We
    found estimators properly qualified to perform environmental cost estimating at
    all 27 locations reviewed.


Compliance with Environmental Liabilities Guidance
    DERP, BRAC, and non-DERP activities did not follow FMR guidance and DERP
    program guidance concerning environmental liability financial reporting. In
    addition, non-DERP activities lacked specific implementation guidance.

    Financial Reporting Guidance. DERP and BRAC activities did not follow
    financial reporting guidance when reporting environmental liabilities. The DERP
    guidance requires complete disclosure of all environmental restoration liabilities
    to include having complete, formal, and auditable documentation of all data and
    other information used to develop the estimate of the environmental restoration
    liability. However, DERP and some BRAC activities did not follow this
    guidance, and the installations could not produce adequate audit trails. For
    example, one DERP active installation could not provide documentation to
    support any of the 15 estimates, valued at $134 million, selected for our review.
    One DERP-FUDS activity could not provide adequate documentation to support
    any of the 70 estimates, valued at over $604 million, selected for review. One
    BRAC site could not provide documentation to support 66 estimates, valued at
    approximately $66.2 million, representing approximately 6 percent of total Army
    BRAC environmental liabilities.


                                         9
             DERP Guidance. Even though DERP active installation and FUDS
    guidance requires that all estimates prepared include all anticipated costs on a
    current cost basis, FUDS activities did not update and report all environmental
    liability costs in current year dollars. Of 300 FUDS estimates reviewed,
    36 estimates, valued at approximately $963 million, were not updated and
    reported in current year dollars. In addition, of 231 DERP active installation
    estimates reviewed, 45 estimates, valued at approximately $836 million, were not
    updated and reported in current year dollars. Because these projects were not
    updated, the reported amount was not in accordance with financial reporting
    guidance and the liability could be misstated.

             BRAC Guidance. The BRAC Office reduced FY 2002 environmental
    liability estimates by approximately $382 million based on funding constraints.
    DoD FMR 7000.14-R, volume 4, chapter 14, states that availability of funds
    should not determine the liability. However, the BRAC Office applied
    predetermined criteria that included a self-generated $1 billion ceiling constraint,
    which limited the total environmental liability recognized. Based on the
    constraints, BRAC Office officials either encouraged installations to revise
    estimates using a more optimistic approach or arbitrarily changed site estimates.
    A written explanation of BRAC Office reductions to estimates was not provided
    to BRAC installations. The use of budgetary constraints by the BRAC Office for
    reporting FY 2002 environmental liabilities did not adhere to the DoD FMR (see
    BRAC Issues in Appendix E).

            Non-DERP Guidance. The Army did not establish guidance for
    developing estimates for non-DERP environmental liabilities. However, AEC did
    release an Environmental Program Requirements Project Catalog that contained
    sample projects to use when developing EPR estimates. In addition, one non-
    DERP activity did not follow financial reporting guidance and may have
    incorrectly reported $15.16 million in environmental liabilities on the FY 2002
    Note 14. Based on the FMR and other accounting guidance, the Army should
    have classified the environmental liabilities as contingent liabilities and should
    have been reported on Note 16 (see Financial Reporting Guidance in
    Appendix F).


Controls Over Feeder Systems
    DERP and BRAC activities lacked effective and reliable controls over feeder
    systems. The non-DERP feeder system, Environmental Program Requirements
    (EPR) database, could not be reviewed because of inadequate documentation and
    lack of functionality to produce an audit trail. Internal controls for the
    Restoration Cost-to-Complete System/Defense Site Environmental Restoration
    Tracking System (RCTCS/DSERTS) feeder system for DERP active installations
    and BRAC activities and the FUDMIS feeder system for FUDS did not ensure
    that the systems effectively reflected the environmental FY 2002 liability
    estimates prepared at the installation level. DERP guidance requires the estimates
    and the values in the annual financial statements for environmental restoration to
    be consistent at the component and department levels. Only 339 of the 674 DERP
    active installation, FUDS, and BRAC feeder system estimates reviewed


                                         10
    accurately reflected environmental FY 2002 liability estimates prepared at the
    installation level. Table 4 provides a breakdown of estimates accurately reflected
    in the RCTCS/DSERTS and FUDSMIS feeder systems for DERP active
    installation, FUDS, and BRAC estimates.

                              Table 4. Adequacy of Environmental Liability
                                            Feeder Systems

                                                         DERP                FUDS              BRAC               Totals

     Estimates Reviewed                                   231                  300*              143               674

     Estimates Accurately Reflected
                                                           68                  197                74               339
     in Feeder Databases

     *
         The actual number of estimates that were updated with 2002 cost factors was 222. Therefore, the 186 estimates that
     were correctly reflected between the databases were from the sample of 222. The remaining 78 estimates were not
     updated to 2002 cost factors or did not have documentation to make a determination. Refer to Appendix D for
     additional discussion.




    For example, only 8 of the 36 estimates reviewed at Redstone Arsenal were
    consistent with estimates in the reporting database. At Dugway Proving Ground,
    the supporting database did not agree with 42 of 44 estimates reviewed, in part
    because of a lack of communication between the location and AEC personnel.
    This resulted in AEC inserting prior year estimates into the database rather than
    revised estimates. At Fort McClellan, estimates submitted for reporting purposes
    and estimates to the reported database were inconsistent by approximately
    $54.28 million. These inconsistencies occurred because AEC personnel and
    BRAC Office made changes to the estimates without documenting them or
    adjusting the original estimates, causing the reporting database to reflect
    inaccurate data.
    The Corps of Engineers did not have adequate internal controls in place to ensure
    that their personnel input accurate data into FUDSMIS. For 300 FUDSMIS
    database entries valued at approximately $5.9 billion, Corps of Engineers districts
    could provide documentation to support approximately $4.2 billion. Corps of
    Engineers district personnel could not explain why the estimates did not match
    the database and what represented the $1.7 billion difference. Because of the lack
    of consistency between the supporting database and changes by upper
    management, an audit trail that would allow an auditor to review the supporting
    documentation did not exist.


Management Actions
    The DERP and non-DERP programs have undertaken some management actions
    for the deficiencies identified. For the DERP program, AEC developed and
    released the Army Environmental Database Restoration feeder system for use in


                                                           11
    the Army FY 2003 DERP active installation and BRAC data call to integrate the
    Defense Site Environmental Restoration Tracking System (DSERTS) and the
    Restoration Cost-to-Complete System (RCTCS) databases. The Army
    Environmental Database Restoration feeder system is capable of importing
    RACER estimates as well as entering and revising cost-to-complete estimates and
    is a more automated process that will reduce the possibility of errors. In addition,
    the Environmental Database Restoration feeder system will allow estimators to
    revise estimates without creating a discrepancy between the RACER estimate and
    the feeder systems. AEC is also developing the Army Environmental Database-
    Cleanup Compliance feeder system for non-DERP estimates for use in FY 2005.
    The Army Environmental Database-Cleanup Compliance will have the same
    capabilities as the Army Environmental Database Restoration feeder system.

    The Corps of Engineers is in the process of creating a FUDS Information
    Improvement Plan. The goals of the plan are to direct that:

       •   all FUDS properties/projects are documented and maintained in
           accordance with DoD and Corps of Engineers policy and regulations;

       •   FUDS estimates are properly developed and reviewed for quality,
           technical adequacy, reasonableness, are properly documented; and

       •   estimate entries are consistent with FUDSMIS.

    Implementation of the plan was scheduled for April 2004.

    The non-DERP program has also initiated corrective action. The Office of the
    Deputy Under Secretary of Defense (Installations and Environment) is developing
    a non-DERP financial reporting policy that discusses definitions for
    environmental liabilities, identification and differences between environmental
    liabilities, accounting treatments, estimate methodology, and criteria for
    determining the type of liability to be reported. The policy also covers
    environmental liabilities for the Army Chemical-Demilitarization program and
    disposal of Navy nuclear-powered ships. The Deputy Under Secretary
    (Installations and Environment) will issue the policy during FY 2004. The Army
    also plans to develop non-DERP specific program guidance.

    The Army is also developing environmental liability control improvements to be
    implemented in the Army Chief Financial Officer Strategic Plan the Army
    Environmental Cleanup Strategic Plan and individual program management
    strategic plans for DERP active installations, DERP-FUDS, BRAC and non-
    DERP programs. The expected completion date for the strategic plan
    implementation is September 2005.


Management Comments on Finding A and Audit Response
    Summaries of management comments on finding A and our audit response are in
    Appendix G.



                                         12
Recommendations, Management Comments, and Audit
  Response
    Added and Revised Recommendations. As a result of Under Secretary of
    Defense (Comptroller)/Chief Financial Officer comments we revised
    Recommendations A.2.a. and added Recommendation A.3. to the Secretary of the
    Army.

    A.1. We recommend the Deputy Under Secretary of Defense (Installations
    and Environment) develop and implement program guidance to improve the
    development, recording, and reporting of environmental liabilities on DoD
    and Service financial statements. At a minimum, the guidance should
    include a quality assurance and quality control program requirement at
    installation, intermediate, and headquarters levels to specify that:

             a. adequate documentation for data used to report environmental
    liabilities is prepared to include the underlying basis, assumptions, and
    methodology used in developing the estimates;

          b. estimates are developed by a qualified estimator and reviewed for
    reasonableness; and

          c. adequate documentation of supervisory reviews and quality
    assurance review scope and results are maintained.

    Deputy Under Secretary of Defense (Installations and Environment)
    Comments. The Assistant Deputy Under Secretary of Defense (Environment,
    Safety, and Occupational Health) concurred with the Recommendation A.1. The
    Assistant Deputy Under Secretary (Environmental, Safety, and Occupational
    Health) stated that although DERP guidance covering DERP active, DERP
    FUDS, and BRAC already have the type of recommended policies in place,
    further guidance is planned by the end of FY 2004 to ensure that the Inspector
    General recommendations are fully addressed. Further, the Deputy Under
    Secretary of Defense (Installations and Environment) plans to issue guidance for
    the non-DERP program during FY 2004 that will fully address the
    recommendations of the draft report.

    Army Comments. Although not required to comment, the Deputy Assistant
    Secretary of the Army (Environment, Safety, and Occupational Health) noted that
    the Army will implement any Office of the Deputy Under Secretary of Defense
    (Installations and Environment) program guidance to improve the development,
    recording, and reporting of environmental liabilities. Several specific
    environmental liability control improvements are presently being implemented in
    the Army Chief Financial Officer Strategic Plan the Army Environmental
    Cleanup Strategic Plan and individual program management strategic plans for
    DERP active installations, DERP-FUDS, BRAC, and non-DERP programs. The
    completion goal for the various strategic plan initiatives was September 2005.




                                       13
Audit Response. We consider the Assistant Deputy Under Secretary of Defense
(Environmental, Safety, and Occupational Health) comments responsive to the
intent of Recommendation A.1.

A.2. We recommend that the Army Assistant Chief of Staff for Installation
Management require the:

        a. Army Commander, Base Realignment and Closure Office,
establish procedures, including ethics training, to verify that Army Base
Realignment and Closure environmental liability estimates are true and
meaningful as required by the Financial Management Regulation and not
adjusted because of potential budgetary constraints.

       b. Commander, U.S. Army Corps of Engineers, establish a district
and division level quality control program to assess the reliability of the
processes and controls used to develop, approve, and forward the
environmental liability estimates before the estimates are reported.

Army Comments. The Deputy Assistant Secretary of the Army (Environment,
Safety, and Occupational Health) did not concur with the draft report
Recommendation A.2.a. The Deputy Assistant Secretary agreed that the BRAC
Division should establish procedures to achieve auditable environmental cost
estimates in accordance with report Recommendations A.1.a. and A.1.c.
However, the Deputy Assistant Secretary disagreed with the
Recommendation A.2.a. statement suggesting the Army BRAC environmental
liability was adjusted because of potential budgetary constraints. The BRAC
Office reviewed and made changes to BRAC installation environmental cost-to-
complete estimates based on what the BRAC Office believed was the most likely
remediation scenario, and the BRAC Office review decisions were made in
coordination with field offices, installations, and AEC. Further, Environmental
Protection Agency and/or state environmental regulatory bodies would request
more extensive and expensive remediation than that required by law, and that in
such cases the BRAC Office would direct installations to pursue a more cost-
effective remedial solution.

The Deputy Assistant Secretary concurred with Recommendation A.2.b. stating
that most FUDS estimates were developed centrally and that no internal controls
were in place for those estimates. The Deputy Assistant Secretary of the Army
(Environmental, Safety, and Occupational Health) noted that the
Recommendation A.2.b. implementation would be completed by September 2005.

Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments. The Under Secretary of Defense (Comptroller)/Chief Financial
Officer stated that the Army should take appropriate action, including initiating
ethics training to prevent any future misrepresentation of Army Base Realignment
and Closure Office environmental liability estimates.

Audit Response. In response to the comments by the Under Secretary of
Defense (Comptroller)/Chief Financial Officer, we revised Recommendation
A.2.a. in the final report to include ethics training. We consider the Army
comments to Recommendation A.2.a. to be not responsive to the intent of the


                                   14
recommendation and continue to believe that internal Army BRAC procedures
are required to verify that Army BRAC environmental liability estimates are true
and meaningful. The objective of the audit was to determine the reliability of the
data and processes used to report environmental liability estimates, not to
determine the appropriate scenario for installation cleanup. We concluded that
the installation prepared estimates for FY 2002 environmental liability reporting
were more reliable than the BRAC Office estimates based on installation
documentation and installation explanation of the estimating process. We made
no judgment regarding whether Environmental Protection Agency and/or state
environmental regulatory remediation requirements were more extensive or
expensive than required. However, no documentation existed to support the
BRAC Office decisions to replace the installation estimates. We request further
comment from the Army to final report Recommendation A.2.a. The Army
comments to Recommendation A.2.b. were responsive and no further comment is
required.

A.3. We recommend that the Secretary of the Army investigate the Army
Base Realignment and Closure Office reduction of FY 2002 environmental
liability estimates and take appropriate action, including action against
individuals involved, to prevent misrepresentation from occurring in the
future.

Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments. The Under Secretary of Defense (Comptroller)/Chief Financial
Officer stated that the final report should include a recommendation that the
Army should take appropriate action, including action against individuals
involved, to prevent future misrepresentation of Army Base Realignment and
Closure Office environmental liability estimates.

Audit Response. Recommendation A.3. has been added to the final report in
response to the comments by the Under Secretary of Defense (Comptroller)/Chief
Financial Officer. We request comment on this recommendation from the Army.




                                    15
           B. Environmental Liability Electronic
              Cost Estimating Systems
           Although technically complying with existing DoD, Navy, and Air Force
           modeling and simulation requirements, the Navy and Air Force VV&A
           reviews of the CTCNORM and the RACER electronic cost estimating
           systems were performed on a face validation basis without comparison of
           estimated to actual costs. The face validations were used because the
           verification and validation agents and the independent accreditation agent
           assigned unsupported low-risk determinations to four key impact risk
           categories. In addition, the Air Force did not complete and issue a
           separate verification and validation report for the RACER system and the
           Air Force did not update the Defense Modeling and Simulation office
           repository with the RACER review results. Finally, the Navy did not
           update existing Navy modeling and simulation policies and procedures for
           compatibility with VV&A review of environmental liabilities electronic
           cost estimating systems as required by the DERP program guidance of
           September 2001. Thus the risk of misstated environmental liabilities
           estimates derived from the electronic estimating systems was increased
           because the Government cannot be assured of the VV&A review quality.
           The Navy and the Air Force have since begun to perform comparisons
           between electronic model environmental liability estimates, and the actual
           costs of projects to validate the estimates produced by the CTCNORM and
           RACER models.


Electronic Cost Estimating System Guidance
    DoD Guidance. Prior General Accounting Office, Inspector General of
    Department of Defense, Naval Audit Service, and Air Force Audit Agency reports
    discussed that data supporting DERP liability estimates were not accurate,
    complete, or supportable. The Deputy Under Secretary of Defense (Installations
    and Environment) issued “Supplementary Management Guidance for the Defense
    Environmental Restoration Program,” in August 1999. The DERP guidance
    required that environmental liability cost estimating computer models be
    subjected to VV&A reviews at the DoD level in accordance with DoD Instruction
    5000.61, “DoD Modeling and Simulation Verification, Validation, and
    Accreditation,” April 29, 1996.

    Air Force and Navy Guidance. Air Force Instruction 16-1001, “Verification,
    Validation, and Accreditation (VV&A),” June 1, 1996, requires that modeling and
    simulation used to support the major decision-making organizations and
    processes are verified, validated, and accredited. Air Force Instruction 16-1001,
    allows for the completion of an acceptable face validation examination.
    However, the instruction does not detail the processes to perform a face validation
    or what is acceptable. Secretary of the Navy Instruction 5200.40, “Verification,
    Validation, and Accreditation (VV&A) of Models and Simulations,” April 19,
    1999, established policy and procedures for VV&A requirements within the
    Navy.


                                        16
    Navy Instruction 5200.40, makes no specific reference to face validation but notes
    that reviews should be commensurate with the purpose for which the accreditation
    is being sought. Navy Instruction 5200.40 is supplemented with the “Department
    of the Navy Model and Simulation Verification, Validation, and Accreditation
    Implementation Handbook,” February 2001. None of the modeling and
    simulation guidance documents included specific requirements for VV&A of
    financial related modeling systems.

    DERP Guidance Revision. DERP guidance revision of September 2001 allowed
    Service Components to establish formal VV&A policies and procedures for any
    cost modeling tools used to develop environmental liability reports or cost-to-
    complete estimates. The revised guidance also noted that Components were
    responsible for developing implementation or supplementation documents for
    DoD Instruction 5000.61 and establishing VV&A policies, procedures, and
    guidelines for environmental liability modeling and simulation applications. The
    revised DERP guidance did not apply to the Air Force VV&A of the RACER
    system because the VV&A was completed prior to the issuance of the revised
    guidance. Although the revised DERP guidance did apply to the Navy VV&A of
    the CTCNORM system, it became effective three weeks before the system was
    accredited.


Face Validation Method
    Although technically complying with existing DoD, Navy, and Air Force
    modeling and simulation requirements, the Navy and Air Force VV&A reviews
    of the CTCNORM and the RACER electronic cost estimating systems were
    performed on a face validation basis without comparison of estimated to actual
    costs.

    RACER Independent Accreditation Contract. The Air Force Civil
    Engineering Support Agency used a U.S. Army Corps of Engineers small
    business contract with Tesseract Technologies to perform the RACER
    independent accreditation. Tesseract Technologies subcontracted with
    PricewaterhouseCoopers, LLP, on February 23, 2001. The accreditation team
    consisted of one PricewaterhouseCoopers analyst and one analyst from Tesseract
    Technologies. PricewaterhouseCoopers issued to the Air Force Civil Engineering
    Support Agency an undated RACER Accreditation Recommendation Report
    recommending that the RACER system be accredited to “provide an automated,
    consistent, and repeatable method to estimate and document the program cost for
    the environmental cleanup of contaminated sites and to provide a reasonable cost
    estimate for program funding purposes consistent with the information available
    at the time of the estimate preparation.” On July 11, 2001, the Executive
    Director, Air Force Civil Engineering Support Agency accredited RACER.

    RACER Accreditation Face Validation. The contractor accreditation used a
    face validation approach through interviews with RACER subject matter experts
    as well as desk reviews of prior in-house verification and validation efforts. The
    face validation method was qualitative rather than quantitative and only identified
    general trends and predictions. Although the contractor accreditation was
    technically complying with existing DoD and Air Force modeling and simulation


                                        17
            requirements, it did not include data validation tests of RACER, such as
            comparing RACER results to non-RACER data that defined expected results.

            CTCNORM Accreditation Review Contract. On May 14, 2001, the Navy also
            contracted with Tesseract Technologies to perform the CTCNORM independent
            accreditation. Tesseract Technologies again subcontracted with
            PricewaterhouseCoopers. The Tesseract Technologies CTCNORM accreditation
            team was composed of the same two personnel who performed the RACER
            accreditation. PricewaterhouseCoopers issued an undated “CTC Accreditation
            Recommendation” report to NAVFAC stating that the CTCNORM system be
            fully accredited “to provide planning, programming, and budgeting system that
            supports the estimation and development of credible budgetary requirements and
            financial statement liabilities for the Navy’s environmental restoration program.”
            On October 18, 2001, the Commander, NAVFAC accredited CTCNORM.

            CTCNORM Accreditation Face Validation. The contractor accreditation team
            chose to perform a face validation of CTCNORM through interviewing subject
            matter experts and desk reviews of prior and ongoing in-house verification and
            validation efforts. Although technically complying with existing DoD and Navy
            modeling and simulation requirements, the method was qualitative rather than
            quantitative. The accreditation team did not perform assessments as to the
            credibility of the modeling and simulation results and did not perform data
            validation tests of CTCNORM such as comparing CTCNORM results to data that
            defined what the expected results should be.


Air Force Accreditation Review
            Air Force verification and validation agents and the independent accreditation
            agent assigned unsupported “low-risk” determinations to four key impact risk
            categories for RACER. In addition, the Air Force did not complete and issue a
            separate verification and validation report for the RACER system as required by
            Air Force Instruction 16-1001, and the Air Force did not update the Defense
            Modeling and Simulation office repository with the RACER review results.

            Accreditation Risk Assessment. The accreditation team performed a risk
            assessment and concluded that criticality of the system was minimal because
            RACER was a legacy system2 developed before the advent and widespread
            implementation of detailed VV&A practices.

            The contractor accreditation team assigned a low-risk determination to RACER
            based on an analysis of four impact risk categories: cost, political, human/health
            and exposure, and environment damage. The Tesseract Technologies and
            PricewaterhouseCoopers contract accreditation agents stated that they assigned a
            low risk to the four impact categories because the impact to life was low and
            VV&A guidance on models and simulations did not provide for another risk
            analysis format. We consider the risk assessment guidelines that the

2
    A legacy system is defined as an information technology system with long history of prior use and
    endorsement.



                                                      18
accreditation team used questionable. For example, the risk assessment analysis
guidelines stated that a “negligible” cost impact would occur if cost growth
resulting from errant estimates were less than 20 percent. We considered the 20-
percent cost growth threshold to be incompatible with 3-percent error thresholds
for financial statement reporting. Additionally, the contract accreditation team
did not maintain any working papers regarding the low-risk determination for the
four impact categories. As a result, we consider the contract accreditation team
low-risk conclusion to be unsupported. The RACER accreditation example also
shows the need for tailoring of modeling and simulation guidance when VV&A
reviews of environmental liability cost estimating systems are performed, as is
now required by the revised DERP guidance of September 2001. If such
guidance had been in place, a more detailed and specific risk analysis review may
have been conducted.

RACER Contractor Testing. The RACER management contractor, Earth Tech,
Incorporated, performed a statistical analysis of RACER estimates before the
accreditation review. The contract accreditation team did not review the validity
of the Earth Tech, Incorporated, analysis. Earth Tech, Incorporated, compared
the actual costs of 53 FY 2000 and FY 2001 projects with RACER-generated cost
estimates for those same projects. We considered the Earth Tech, Incorporated,
analysis to be of limited usefulness because of the lack of validation of the test
and because the Air Force represented only 6 of 53 (11 percent) of the cost
estimating projects reviewed and no Army projects were included.

Verification and Validation Report. Air Force Instruction 16-1001 requires
that the verification and validation agents submit a separate verification and
validation report documenting verification and validation activities, results, and
recommendations. The Air Force verification and validation agents and the
accreditation team did not complete and issue a separate verification and
validation report for the RACER system. Contractor accreditation team personnel
stated that they authored the verification and validation as a section of the final
RACER accreditation recommendation report. The Commander, Air Force Civil
Engineering Support Agency stated that the Agency was not aware of the separate
verification and validation report requirement and that the verification and
validation was accomplished simultaneously with the VV&A report.

Modeling and Simulation Resource Repository. DoD Instruction 5000.61 and
Air Force Instruction 16-1001 require that information and data on VV&A
activities be readily available through the DoD Modeling and Simulation
Resource Repository system, including DoD Component VV&A policies and
procedures, verification and validation results, and accreditation documentation.
The contractor accreditation team did not update the Defense Modeling and
Simulation Resource Repository with the RACER review results because the
PricewaterhouseCoopers subcontract for RACER accreditation had expired. The
PricewaterhouseCoopers analyst provided only contact information to the
repository. Air Force Civil Engineering Support Agency VV&A personnel also
stated they did not update the repository.




                                    19
Navy Accreditation Review
    The Navy verification and validation agents and the independent accreditation
    agent assigned unsupported “low-risk” determinations to four key impact risk
    categories. In addition, the Navy did not update existing Navy modeling and
    simulation policies and procedures to be compatible with VV&A review of
    environmental liabilities electronic cost estimating systems as required by the
    revisions to DERP program guidance of September 2001.

    Accreditation Review Scope. The October 2001 accreditation addressed
    CTCNORM cost models and its functions. The accreditation team concluded that
    criticality of CTCNORM was minimal in part because it was a legacy system
    developed before the advent and widespread implementation of detailed VV&A
    practices. CTCNORM complied with the Secretary of the Navy
    Instruction 5200.40 definition of a legacy system as a system developed and
    implemented before 1999.

    Accreditation Risk Assessment. The accreditation team also performed a risk
    assessment and assigned CTCNORM a low-risk determination. The risk
    assessment analysis guidelines were identical to those used earlier for the RACER
    accreditation. The Tesseract Technologies and PricewaterhouseCoopers
    accreditation agents again stated that they assigned low-risk determination
    because the impact to life was low and VV&A guidance on models and
    simulations did not provide for another risk analysis format. The contractor
    accreditation team did not maintain any working papers relating to the low-risk
    determination. We consider the risk assessment guidelines that the accreditation
    team used questionable and the low-risk conclusion to be unsupported. The
    CTCNORM accreditation shows that the September 2001 revised DERP
    guidance, to tailor existing modeling and simulation guidance, should have been
    implemented by the NAVFAC VV&A. If implemented, a more detailed and
    specific risk assessment may have been performed.

    Verification and Validation Testing. The Navy CTCNORM system verification
    tested the premise that the technology models for estimating costs had been
    successfully migrated to the CTCNORM system from an original spreadsheet
    development environment through a standardized library format. If the cost
    model/estimating logic had been successfully transferred, then there would be
    substantial agreement in the estimates generated by CTCNORM and the
    CTCNORM verification spreadsheet using identical input parameters. The
    verification testing did not compare estimated costs to actual costs, as actual costs
    were not available for the CTCNORM version being tested. The verification test
    was performed concurrently with the accreditation review. The NAVFAC
    VV&A program manager stated that the concurrent verification and accreditation
    process complied with guidance in the “Department of the Navy Model and
    Simulation Verification, Validation, and Accreditation Implementation
    Handbook,” February 2001. The Navy should update existing Navy modeling
    and simulation policies and procedures for compatibility of future VV&A reviews
    of the CTCNORM electronic cost estimating system in accordance with the
    DERP Guidance of September 2001.



                                         20
Navy and Air Force Management Actions
    The Navy and the Air Force have begun to perform comparisons between
    electronic model environmental liability estimates and the actual costs of projects
    to validate the estimates produced by CTCNORM and RACER.

    IG Memorandum and Air Force Response. On July 18, 2003, we issued a
    memorandum on the review of the VV&A of the RACER system to the
    Commander, Air Force Civil Engineering Support Agency. We suggested that
    the Air Force Civil Engineering Support Agency initiate a comprehensive
    accreditation review of the RACER system and that the accreditation should
    include substantive testing of underlying databases and comparison of RACER
    estimates to actual costs. We also suggested that the Air Force Civil Engineering
    Support Agency perform and submit a separate verification and validation report
    as required by Air Force guidance.

    On August 27, 2003, Air Force Civil Engineering Support Agency responded
    stating that they non-concurred with certain aspects of the memorandum. The
    Air Force Civil Engineering Support Agency disagreed with the need to
    re-accredit RACER. But the Air Force stated they had begun a process to
    document comparison of RACER-generated costs with associated actual project
    costs on present and future models and that once comparisons were completed, a
    new verification and validation report would be developed. The Air Force Civil
    Engineering Support Agency also stated that the Agency would update the DoD
    Modeling and Simulation Resource Repository system of the RACER VV&A
    within 30 days of the completion of this audit.

    RACER Validation Contract. On September 26, 2003, the U.S. Army Corps of
    Engineers, Omaha District, contracted with Booz Allen Hamilton Corporation to
    compare and analyze models in the RACER 2003 software program to actual
    restoration/remediation project costs. The task order required Booz Allen
    Hamilton to perform a comprehensive assessment of the RACER 2003 cost
    models and underlying databases and to evaluate cost models in the RACER
    system that best represented the most commonly used technologies. The models
    were to be evaluated for cost reasonableness, current cost methodologies, and
    general functionality. These steps are consistent with our suggestion to compare
    environmental liability estimates reported on financial statements with the actual
    costs of projects.

    Navy Management Comments. During the review we suggested that the Navy
    also perform detailed validated comparisons between environmental liability
    estimates using the CTCNORM system and actual costs of projects. In addition
    we suggested that the Navy update existing Navy modeling and simulation
    policies and procedures for compatibility of VV&A reviews of the CTCNORM
    electronic cost estimating system in accordance with the DERP guidance of
    September 2001.

    In a July 24, 2003, memorandum to us, NAVFAC stressed that it followed DoD
    Instruction 5000.61 and implemented Navy requirements. NAVFAC stated that
    the project data for the current environmental liability are not available for use in
    a validated comparison because of the nature and longevity of projects within the


                                         21
    program, and developing the quality and quantity of project data necessary for a
    statistically valid comparison will take some time.

    CTCNORM Validation Task Order. On September 29, 2003, the Navy issued
    a task order amendment/modification to Battelle Memorial Institute to perform a
    historical cost review of the CTCNORM system. The Navy objective was to
    establish a process for continuous model improvement by including a feedback
    loop based on comparison with historical costs. Navy personnel stated that the
    project would establish tools and processes that will allow Navy to collect cost
    data from each execution year to further develop and improve future CTCNORM
    models. Navy personnel also stated that the new process will continue yearly and
    be incorporated into the Navy formal business process to develop reliable data
    and sustainable CTCNORM model improvement. These steps are consistent with
    our suggestion to compare environmental liability estimates reported on financial
    statements with the actual costs of projects.


Management Comments on Finding B and Audit Response
    The Army concurred with the finding without further comment. Summaries of
    Navy management comments on finding B and our audit response are in
    Appendix G. The Air Force made no management comment on finding B.


Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend that the Commander, Naval Facilities Engineering
    Command issue guidance requiring future environmental liability electronic
    cost estimating system verification, validation, and accreditation efforts that
    comply with the September 2001 DERP Management Guidance,
    section 15.7., requirements for policies, procedures, and guidelines for
    environmental liabilities modeling and simulation applications.

    Navy Comments. The Assistant Secretary of the Navy (Financial Management
    and Comptroller), responding for the Commander, Naval Facilities Engineering
    Command, concurred with the recommendation, but stated that the
    recommendation language was ambiguous, and might be interpreted that the
    Navy’s October 18, 2001, CTCNORM accreditation was not in compliance with
    the current DERP guidance, and as a result, additional effort would be necessary.
    The 2001 effort was well beyond substantial completion prior to the issuance of
    the current DERP guidance on September 28, 2001. The completed VV&A was
    in full compliance with both the current and previously issued DERP guidance
    and with DoD Instruction 5000.61 and Secretary of the Navy Instruction 5200.4.
    Current DERP guidance does not contain any specific or substantive requirements
    for conducting VV&A reviews and only requires that the Services issue their own
    policies for conducting VV&A reviews.




                                        22
Audit Response. Although the Navy concurred, the management comments were
only partially responsive to the intent of the recommendation. We do not
consider the October 2001 CTCNORM VV&A to be in compliance with the
current DERP guidance. The report presents the events of the 2001 CTCNORM
VV&A and makes no explicit or implied comment on the NAVFAC management
decision to issue a final accreditation of the CTCNORM on October 18, 2001,
without apparent consideration of the revised DERP guidance issued three weeks
earlier. The recommendation allows the Navy the opportunity to comply with the
revised DERP guidance by documenting revision to its modeling and simulation
applications policies, procedures, and guidelines. Although we agree the current
DERP guidance does not contain specific technical requirements for conducting
environmental liability cost estimating system VV&A, it does require reviewing
and coordinating DoD VV&A policies and procedures and integrating DoD
publications into the program of the Component. The guidance also requires
developing implementation and supplementation documents for DoD Instruction
5000.61, and establishing VV&A policies, procedures, and guidelines for
modeling and simulation applications. The Navy has not revised Secretary of the
Navy Instruction 5200.4 or accompanying Navy Model and Simulation
Management Office guidance since February 2001. Although subsequent Navy
CTCNORM validation efforts mitigated the need for a recommendation to
perform an immediate VV&A to the standards of the current DERP guidance, we
continue to assert that the DERP guidance be complied with in any future Navy
VV&A review of an environmental liability electronic cost estimating system.

B.2. We recommend that the Commander, Air Force Civil Engineering
Support Agency issue guidance requiring that future environmental liability
electronic cost estimating system verification, validation, and accreditation
efforts comply with the following:

       a. September 2001 Defense Environmental Restoration Program
Management Guidance, section 15.7., requirements for policies, procedures,
and guidelines for environmental liabilities modeling and simulation
applications.
      b. Air Force Instruction 16-1001 requirements that the verification
and validation agents submit a separate verification and validation report
documenting verification and validation activities, results, and
recommendations.

        c. DoD Instruction 5000.61 and Air Force Instruction 16-1001
requirements that information and data on verification, validation, and
accreditation activities be readily available through the DoD Modeling and
Simulation Resource Repository system, including DoD Component
verification, validation, and accreditation policies and procedures,
verification and validation results, and accreditation documentation.

Air Force Comments. The Assistant Deputy Chief of Staff of the Air Force
(Installations and Logistics) concurred with the recommendation and stated the
Air Force would direct the Commander, Air Force Civil Engineering Support
Agency, to accomplish the recommendations’ goals as soon as possible.




                                   23
Army Comments. Although not required to comment, the Deputy Assistant
Secretary of the Army (Environment, Safety, and Occupational Health) concurred
with the recommendation stating that the Army and the U.S. Army Corps of
Engineers are currently planning to work with the Air Force to assist in getting
corrective actions completed for RACER.




                                   24
           C. Navy Nuclear-Powered Ship Disposal
              Environmental Liabilities
           The Navy methodology used to estimate the approximate $10.05 billion
           environmental liability identified on Note 14 for the disposal of nuclear-
           powered ships appeared reasonable. However, the estimating and
           reporting processes needed improvement. This occurred because the
           Navy did not develop written nuclear-powered ship disposal liability
           guidance. In response to this audit the Navy and the Office of the Deputy
           Under Secretary of Defense (Installations and Environment) are
           developing nuclear-powered ship disposal guidance to improve the
           process.

Background
    Nuclear-Powered Ship Disposal Review. We reviewed the estimating
    methodology and the internal controls related to the approximate $10.05 billion
    environmental liability estimate for the disposal of nuclear-powered ships by the
    Navy. We performed control tests on the FY 2002 disposal estimate based on AU
    342 (Auditing Accounting Estimates) of the American Institute of Certified
    Public Accountants Codification of Statements on Auditing Standards, January 1,
    2002. We also performed a limited review on the FY 2003 disposal estimates.
    We did not perform detailed control or compliance testing of the liability
    estimates.

    As of September 30, 2002, the Navy reported estimates totaling approximately
    $10.05 billion for nuclear-powered ship disposal environmental liabilities:

           •   $4,890.0 million for the disposal of 9 nuclear-powered aircraft
               carriers,

           •   $4,888.9 million for the disposal of 90 nuclear-powered submarines,
               and

           •   $269.1 million for the disposal of 3 nuclear-powered cruisers.

    As of September 30, 2003, the Navy reported estimates totaling approximately
    $10.72 billion for nuclear-powered ship disposal environmental liabilities:

           •   $5,565.0 million for the disposal of 10 nuclear-powered aircraft
               carriers,

           •   $4,888.9 million for the disposal of 88 nuclear-powered submarines,
               and

           •   $269.1 million for the disposal of 3 nuclear-powered cruisers.

    Nuclear-Powered Ship Liability Guidance. FMR volume 4, chapter 13,
    prescribes the accounting policy and principles for measuring, and recognizing


                                        25
           liabilities associated with the disposition of property, structures, equipment,
           munitions, and weapons. Specifically FMR volume 4, chapter 13, states:
                        For nuclear-powered assets (for example nuclear submarines and
                        surface ships), the costs of both hazardous waste removal and disposal
                        (environmental disposal) and non-environmental disposal, when
                        probable and reasonably estimable, shall be recognized . . . as expense,
                        and a liability established, when items are placed into service. Cost
                        estimates shall be revised when there is evidence that significant
                        changes in the cost estimates have occurred. . . . At a minimum, long-
                        term cost estimates shall be adjusted (upward or downward) annually,
                        through indexing, to maintain them on a current cost basis.
                        Organizations that prepare cost estimates must retain adequate
                        documentation to identify data sources, estimating method
                        accreditation . . . and rationale used. . . . Documentation of
                        management review must also be retained.

           Although the FMR is specific regarding the accounting for disposal of nuclear-
           powered ships, neither the Navy nor the Office of the Deputy Under Secretary of
           Defense (Installations and Environment) have developed program guidance to
           implement the FMR nuclear-powered ship reporting guidance.

           Naval Sea Systems Command (NAVSEA). NAVSEA is the center of activity
           for designing, engineering, integrating, building, and procuring U.S. naval ships,
           shipboard weapons, and combat systems for the Department of the Navy.
           NAVSEA is responsible for providing the Assistant Secretary of the Navy
           (Financial Management and Comptroller), Financial Operations Division with
           disposal estimates for nuclear-powered aircraft carriers, submarines, and cruisers.
           through data call responses.

Navy Nuclear-Powered Ship Disposal Estimating Methodology
           Navy nuclear-powered ship disposal estimating methodology appeared
           reasonable, however some estimating and reporting processes needed
           improvement.

           NAVSEA Nuclear-Powered Ship Disposal Methodology. NAVSEA considers
           the entire cost of disposing of nuclear-powered aircraft carriers, nuclear-powered
           submarines, and nuclear-powered cruisers3 to be an environmental liability. The
           disposal liability is based on costs incurred during five phases of disposal:
           inactivation, post-inactivation towing, reactor compartment disposal, missile
           compartment dismantling, and hull recycling. Nuclear-powered aircraft carrier
           estimates are developed using engineering assumptions and historical information
           from conventional aircraft carrier disposal and nuclear-powered aircraft carrier
           refueling. Nuclear-powered submarine and cruiser estimates are based on actual
           disposal costs or from historical information on similar type vessels. We
           concluded that the NAVSEA methodology and assumptions were consistent with

3
    Nuclear-powered cruisers are reported under the heading Other Nuclear-Powered Ships on Note 14 of the
    financial statements.



                                                     26
           both supporting and historical data obtained from conventional carrier and
           nuclear-powered submarine and cruiser disposals. We also concluded that
           qualified personnel prepared the disposal estimates.

           Nuclear-Powered Aircraft Carrier Classes. As of September 30, 2002 two
           aircraft carrier classes were subject to eventual inactivation and disposal; the
           USS Enterprise (CVN 65) and the USS Nimitz (CVN 68 CL). One aircraft carrier
           (Enterprise) made up the Enterprise-class. Eight aircraft carriers made up the
           Nimitz-class.

                   Nuclear-Powered Aircraft Carrier Baseline Disposal Estimates.
           Estimating Methodology used to produce the baseline environmental liability
           estimate for the disposal of both classes of nuclear-powered aircraft carriers
           appeared reasonable. NAVSEA prepared an Enterprise-class aircraft carrier
           baseline inactivation and disposal estimate of $590 million in 1989 in response to
           a request from the Secretary of Defense. The 1989 baseline inactivation and
           disposal estimate reflects then current data and Office of Management and Budget
           inflation factors. According to NAVSEA personnel, the estimate was indexed
           through FY 2001 for a reported liability of $730 million.

           The NAVSEA Nimitz-class aircraft carrier baseline estimate for inactivation and
           disposal was prepared in 1993 in response to a congressional/General Accounting
           Office request, for a then-scheduled 1998 Nimitz inactivation. In response to a
           General Accounting Office report, NAVSEA personnel revised the estimate to
           $500 million in 1998 to reflect then current data and inflation factors. The
           baseline estimate was indexed through FY 2001 for a reported liability of
           $520 million per aircraft carrier.

                   Updates to Nuclear-Powered Aircraft Carrier Disposal Estimates. We
           concluded that estimating controls for subsequent annual updates to both aircraft
           carrier classes needed improvement. The Enterprise-class estimate and the
           Nimitz-class estimate were not updated to reflect current year dollars for the
           FY 2002 Note 14 as required by FMR volume 4, chapter 13. In addition,
           NAVSEA did not update the annual disposal estimate for Nimitz-class aircraft
           carriers to include changes to original assumptions and adjustments of factors as a
           result of new Nimitz-class refueling data available since the baseline estimates
           were generated. This did not comply with FMR volume 4, chapter 13
           requirements to update environmental liability estimates.

           Nuclear-Powered Submarine and Cruiser Disposal Estimates. The estimating
           methodology used to produce a FY 2002 environmental liability disposal estimate
           for each of 10 nuclear-powered submarine classes4 and 3 nuclear-powered cruiser
           classes appeared reasonable. NAVSEA developed the estimates based on
           historical cost data of work days and materials, and assumptions including
           modifications for varying hull size, hazardous materials, and efficiency
           gains/losses for different classes of ships. NAVSEA made unit cost adjustments
           to the estimates to comply with naval shipyard rate guidance, current cost
           performance, introduction of new technology, and new regulatory requirements.

4
    NAVSEA produced two estimates for SSN 688CL, one estimate for in-service ships and an estimate for
    inactivated ships.



                                                   27
    However, estimating and reporting of the FY 2003 environmental liability
    disposal estimate for nuclear-powered submarine and nuclear-powered cruiser
    classes needed improvement. NAVSEA personnel stated that the submarine and
    cruiser estimates as of September 30, 2003, had not been updated past the
    September 30, 2002, reported amounts because of a delay in completion of
    revised shipyard rate overhead amounts. As a result, revised estimates would be
    delayed at least until the FY 2004 first quarter financial statements. NAVSEA
    personnel stated that the decision departed from past practice to annually update
    nuclear-powered submarine and cruiser estimates based on revised shipyard rates
    and other factors on the end-of-year financial statement Note 14 as of each
    September 30. The Navy did not disclose this apparent change in accounting
    treatment regarding nuclear-powered submarine and cruiser estimates on the end-
    of-year FY 2003 financial statement Note 14.

Management Actions
    In response to our audit, NAVSEA is developing nuclear-powered ship disposal
    liability guidance to be applicable for the end of year FY 2004 Note 14 reporting
    cycle. The guidance will cover processes for:

       •   developing the estimate;

       •   documenting supervisory review and approval of each estimate;

       •   entering the estimate into the data collection instrument and forwarding
           the estimate to the office of the Assistant Secretary of the Navy (Financial
           Management and Comptroller); and

       •   maintaining supporting documentation for the estimate, along with any
           changes made to the estimate, in an accessible file for audit purposes.

    In addition, NAVSEA implemented inflation indexing as of current year FY 2003
    for ship disposal amounts reported on Note 14 of the financial statements as of
    September 30, 2003. NAVSEA planned further revision of the nuclear-powered
    ship disposal estimates for the first quarter of FY 2004.

    Furthermore, the Office of the Deputy Under Secretary of Defense (Installations
    and Environment) is developing policy that covers, in part, environmental
    liabilities for disposal of Navy nuclear-powered ships and chemical
    demilitarization. The Deputy Under Secretary (Installations and Environment)
    plans to issue the policy during FY 2004.




                                        28
            D. Defense Logistics Agency Contingent
               Environmental Liabilities
            The Defense Finance and Accounting Service errantly categorized
            $2.6 billion of contingent liabilities as environmental contingent liabilities
            on the Annual FY 2002 and first Quarter DoD-wide financial statements.
            The contingent liabilities actually related to Defense Logistics Agency
            fuel contracts and should not have been categorized as environmental.
            The Defense Finance and Accounting Service recategorized the liability as
            a contingent claim and litigation from civil law on the second Quarter
            FY 2003 and subsequent DoD-wide financial statements.


Contingent Liability Categorization
     DoD contingent liabilities are not accrued in the financial statements but are
     disclosed when potential claims are considered reasonably possible. DoD-wide
     financial statement Note 16, “Commitments and Contingencies” discloses the
     potential claims.

     At the request of the Office of the Under Secretary of Defense
     (Comptroller)/Chief Financial Officer, we reviewed a $2.6 billion environmental
     related contingent liability entry on the FY 2002 DoD-wide financial statement
     Note 16. The contingent liability was listed as an “Environmental Restoration”
     entry assigned to the column Other Defense Organizations-Working Capital
     Fund. The Note 16 noted that the $2.6 billion entry was assigned to the Defense
     Logistics Agency, did not include any supporting discussion on the entry.

     In accordance with our request, the Defense Logistics Agency provided
     documentation on March 4, 2003, stating that the entry was in error and did not
     relate to environmental remediation but was rather related to potential claims
     made against fuel contracts made by the Defense Logistics Agency. Defense
     Logistics Agency comptroller office personnel stated the environmental
     restoration entry should have been properly shown under Note 16 line item
     “Claims and Litigation from Civil Law.”


Defense Finance and Accounting Service Management Action
     FY 2003 Note 16 Recategorization. Defense Finance and Accounting Service
     headquarters personnel agreed that Note 16 was mistakenly categorized. The
     Defense Finance and Accounting Service corrected this error in the second
     quarter FY 2003 Note 16 and reclassified the $2.6 billion as claims and litigation
     from civil law.

     FY 2003 Note 16 Contingency Increase. The claims and litigation from civil
     law contingency amount was increased to $2.94 billion as presented on Note 16
     as of September 30, 2003. In our review of a draft Note 16 as of September 30,


                                         29
2003, we noted that the claims and litigation from civil law entry had been
errantly reduced and replaced. We informed the Office of the Under Secretary of
Defense (Comptroller)/Chief Financial Officer of the misstatement. The entry
was corrected in the final Note 16 released September 30, 2003.




                                   30
Appendix A. Scope and Methodology

Scope
           We reviewed Service processes and data used for reporting selected
           environmental liabilities on Note 14 and environmental related contingent
           liabilities on Note 16 of the DoD-wide financial statements. We reviewed
           controls over $21.92 billon of Army environmental liabilities and $10.05 billion
           of Navy environmental liabilities reported on Note 14. Table A-1 shows Army
           and Navy programs we reviewed.

                     Table A-1. FY 2002 Environmental Liability on Note 14 of
                                   the Balance Sheet Reviewed
            DoD Components                                                           Environmental
                                                                                   Liabilities
                                                                                       (in billions)
            Army
              DERP Active Installations                                                    $ 4.82
              DERP-FUDS                                                                     15.53
              BRAC                                                                            .94
              non-DERP                                                                       0.63
                 Total Army Liability Reviewed                                             $21.92

            Navy
              Nuclear-Powered Ships Weapons                                                 10.05
                 Disposal

            Total Environmental Liabilities Reviewed                                       $31.97


           We performed a combination of judgmental and statistical sampling of
           735 environmental liability cost estimates at 27 Army activities and 1 Navy
           activity reported on Note 14.∗ Our review focused mostly on highest dollar value
           estimates. Table A-2 shows the number of activities visited and the number of
           estimates reviewed for each Army and Navy program included in the review.




∗
    A combination of judgmental and statistical selection was performed for DERP active installation, DERP-
    FUDS, and BRAC samples. The non-DERP and Navy samples were judgmentally selected.



                                                     31
          Table A-2. Number of Activities and Estimates Reviewed to Evaluate
                         Controls Over Data and Processes

                                Total            Activities     Total       Estimates
         DoD Components        Activities         Visited     Estimates     Reviewed

      Army DERP Active           145                  7       3,968           231
      Installations

      FUDS                        22                  8       2,037           300

      Army BRAC                   34                  6         461           143

      Army Non-DERP              523                  6       1,155            45

      Navy                         1                  1          16            16

      Totals                     725                  28      7,637           735



    We reviewed Air Force management and accreditation of the RACER electronic
    cost estimating system used by the Army and the Air Force for DERP cost
    estimates. We also reviewed the Navy management and accreditation for the
    cost-to-complete electronic cost estimating system used for Navy DERP cost
    estimates. The reviews were in response to the Navy and the Air Force assertions
    that the electronic estimating systems were fully accredited.

    At the request of the Office of the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer, we reviewed the Defense Finance and
    Accounting Service classification of $2.6 billion of Note 16 contingent liabilities
    attributed as Defense Logistics Agency environmental liabilities on the Annual
    FY 2002 DoD-wide and first Quarter FY 2003 DoD-wide financial statements.
    We also reviewed classification of $1.07 billion of Note 16 contingent liabilities
    attributed to the Army DERP program.


Methodology
    The audit was performed at the Office of the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer, Office of the Deputy Under Secretary of
    Defense (Installations and Environment), and Military Department comptroller
    and environmental offices. Our review included identifying and assessing the
    adequacy of management controls as related to reporting of environmental
    liabilities. Our audit focused on selected items in Note 14 and Note 16 of the
    DoD-wide financial statements where Military Departments made assertions on
    the fair presentation of the amounts reported or when the Office of the Under
    Secretary of Defense (Comptroller)/Chief Financial Officer requested that we


                                            32
review an issue. The Army asserted on January 6, 2003, and then reasserted on
June 26, 2003, that all of the Army environmental liabilities were reported and
presented fairly. The Navy asserted on August 9, 2002, that it maintained a sound
methodology for estimating environmental liabilities associated with nuclear-
powered ships and submarines.

We performed this audit from February 2003 through February 2004 in
accordance with generally accepted government auditing standards. The audit
was also conducted in accordance with Office of Management and Budget
Bulletin 01-02, “Audit Requirements for Financial Statement Audits,” October
16, 2000, as well as the methodologies set forth in the General Accounting
Office/President’s Council on Integrity and Efficiency Financial Audit Manual.
Controls reviewed included development of estimates, qualifications of
estimators, supervisory reviews of estimates, quality assurance reviews, controls
to ensure completeness of estimates, and audit trails and documentation
supporting estimates. We performed control tests on the Army DERP, Army
BRAC, Army non-DERP, and Navy nuclear-powered ship weapons disposal
based on AU Section 342 (Auditing Accounting Estimates) of the American
Institute of Certified Public Accountants Codification of Statements on Auditing
Standards, January 1, 2002. We did not conduct detailed substantive testing of
the reported Army DERP, BRAC, or non-DERP environmental liability estimates
or the Navy nuclear-powered ship estimates.

Scope Limitation. We did not review $12.82 billion of Note 14 or $8.9 billion of
Note 16 Army Chemical-Demilitarization Environmental Liabilities. Review of
the Army Chemical-Demilitarization Environmental Liabilities was performed
separately by the DoD Office of Inspector General, Acquisition Management
Directorate. Chemical-Demilitarization Note 14 and Note 16 related discussion
and recommendations are included in IG DoD Report No. D-2003-128, “The
Chemical Demilitarization Program: Increased Costs for Stockpile and Non-
Stockpile Chemical Materiel Disposal Programs,” September 4, 2003. The report
stated that the Product Manager for Non-Stockpile Chemical Materiel did not
have information needed to prepare a reliable estimate of the cost and schedule to
dispose of buried chemical warfare materiel. The report noted that as a result, the
$8.9 billion contingent liability, which was prepared as a rough order magnitude
estimate in Note 16 of the DoD financial statements, cannot be replaced with a
reliable and defendable estimate of the cost to dispose of the buried chemical
warfare materiel. We did not review any Navy or Air Force DERP, BRAC, non-
DERP, or Other National Defense Weapon System environmental liability
estimates because the Navy and the Air Force made no assertion about the fair
reporting and presentation of the environmental liability line items.

Use of Computer-Processed Data. We relied on data retrieved from the Army
RCTCS/DSERTS, FUDSMIS, and EPR tracking and coordination feeder systems
to perform our respective analyses of the Army DERP, BRAC, and non-DERP
environmental liability estimates. Specifically we used RCTCS/DSERTS,
FUDSMIS, and EPR to obtain Army environmental liability estimate universe
data. We performed tests on the RCTCS/DSERTS, FUDSMIS, and EPR
generated data to determine data reliability. Issues that came to our attention
regarding the RCTCS/DSERTS, FUDSMIS, and EPR tracking and coordination
feeder systems are included in finding A.



                                    33
    We reviewed the RACER and CTCNORM electronic cost estimating systems
    associated with environmental liabilities, including VV&A testing of the RACER
    system performed by the Air Force and VV&A testing of the CTCNORM system
    performed by the Navy. Issues that came to our attention regarding these
    electronic cost estimating systems are included in finding B. The audit relied on
    RACER processed environmental liability estimate data used to report Army
    DERP and Army BRAC environmental liabilities on financial statements. The
    audit did not rely on CTCNORM processed environmental liability estimate data.

    Use of Technical Assistance. We obtained assistance from the Technical
    Director and Operations Research Analysts of the Quantitative Methods Division
    of the Office of the Inspector General.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Financial Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provide reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the Army DERP, BRAC, and non-DERP management controls
    relating to environmental liabilities reported on annual financial statements.
    Specifically, we reviewed management controls over adequate documentation of
    environmental liability estimates, completeness of estimates, supervisory reviews,
    and qualifications of the estimators. We reviewed management’s self-evaluation
    process applicable to those controls.
    We also reviewed the adequacy of Navy and Air Force management controls over
    environmental liabilities electronic cost estimating systems and Navy
    management controls over selected environmental liability estimates.
    Specifically, we reviewed management controls over Navy CTCNORM and Air
    Force RACER VV&A process and Navy process for developing nuclear-powered
    ship disposal environmental liability estimates. Because we did not identify a
    material weakness, we did not assess management’s self-evaluation.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the Army, as defined by DoD Instruction 5010.40. The
    Army DERP, BRAC, and non-DERP management controls for environmental
    liabilities were not adequate to ensure the data and processes used by the Army to
    report environmental liability estimates on the financial statements were reliable.
    The DoD Performance and Accountability Reports for FYs 2002 and 2003
    identified environmental liabilities as a systemic management control weakness of
    the DoD Federal Manager’s Financial Integrity Act. Management actions noted


                                        34
in finding A and Recommendations A.1., A.2, and A.3., if implemented, will
improve the environmental liability estimating process and the reliability of the
Army environmental liability estimates reported on the annual financial
statements. A copy of this report will be provided to the Office of the Assistant
Secretary of the Army (Financial Management and Comptroller).

The Navy management controls over nuclear-powered ship disposal
environmental liabilities and the CTCNORM electronic cost estimating system
VV&A process were adequate as they applied to the audit objective. The Air
Force management controls over the RACER electronic cost estimating system
VV&A process were adequate as they applied to the audit objective.

Adequacy of Management’s Self-Evaluation. Army officials did not identify
DERP, BRAC, or non-DERP environmental liabilities estimating processes as an
assessable unit and, therefore, did not identify or report the material management
control weaknesses identified by the audit.




                                    35
Appendix B. Prior Coverage
    During the last 5 years, the General Accounting Office (GAO) and the Inspector
    General of the Department of Defense (IG DoD), Army Audit Agency (AAA),
    Naval Audit Service (NAS), and Air Force Audit Agency (AFAA) have issued 23
    reports discussing environmental liabilities. Unrestricted GAO reports can be
    accessed over the Internet at http://www.gao.gov. Unrestricted IG DoD reports
    can be accessed at http://www.dodig.mil/audit/reports.


GAO
    GAO Report No. GAO-04-147, “Military Munitions: DoD Needs to Develop a
    Comprehensive Approach for Cleaning Up Contaminated Sites,” December 2003

    GAO Report No. GAO-03-146, “Environmental Contamination: DoD Has Taken
    Steps to Improve Cleanup Coordination at Former Defense Sites but Clearer
    Guidance Is Needed to Ensure Consistency,” March 2003

    GAO Report No. GAO-02-117, “Environmental Liabilities: Cleanup Costs From
    Certain DoD Operations Are Not Being Reported,” December 2001

    GAO Report No. GAO-01-479, “Environmental Liabilities: DoD Training Range
    Cleanup Costs Estimates Are Likely Understated,” April 2001


IG DoD
    IG DoD Report No. D-2004-036, “Independent Auditor’s Report on the
    Department of Defense FY 2003 Agency-Wide Principal Financial Statements,”
    December 10, 2003

    IG DoD Report No. D-2003-128, “The Chemical Demilitarization Program:
    Increased Costs for Stockpile and Non-Stockpile Chemical Materiel Disposal
    Programs,” September 4, 2003

    IG DoD Report No. D-2001-172, “Data Supporting the Environmental Liability
    Reported on the FY 2000 Financial Statements,” August 10, 2001

    IG DoD Report No. D-2000-168, “Data Supporting the Environmental Liability
    Line Item on the FY 1999 DoD Financial Statements,” July 27, 2000

    IG DoD Report No. 99-209, “Data Supporting the Environmental Line Item
    Liability on the FY 1998 Financial Statements,” July 9, 1999




                                      36
Army
       AAA Report No. AA 01-332, “Army’s General Fund Principal Financial
       Statements for Fiscal Year 2000 Financial Reporting of Liabilities: Data
       Collection and Compilation,” June 29, 2001


Navy
       NAS Report No. N 2001-0011, “Department of the Navy Principal Statements for
       Fiscal Year 2000: Environmental Liabilities,” February 6, 2001


Air Force
       AFAA Report No. F2002-0005-B05200, “Followup Audit, Installation Support of
       the Environmental Restoration Program,” April 23, 2002

       AFAA Report No. F2002-0002-B05200, “Environmental Compliance Cleanup
       Liabilities,” March 8, 2002




                                          37
Appendix C. Army DERP Active Installations
            Environmental Liabilities

DERP Active Installations Organization
    Army installation level personnel performed and reviewed FY 2002
    environmental liability estimates for the DERP program. Environmental cost
    estimators use either engineering studies or the RACER electronic cost estimating
    system software to prepare the estimates. The estimates are usually subject to
    installation-level reviews. Installations submit the estimates through the RCTCS
    feeder program. The RCTCS program summarizes estimates by cleanup site and
    totals the cost for completing any environmental restoration activity under DERP
    active installations and BRAC. AEC then transfers the RCTCS database to the
    DSERTS feeder system. The RCTCS/DSERTS database provides an automated
    method of managing, tracking, and querying data on activities conducted under
    the Army DERP active installation and BRAC programs. AEC provides the
    RCTCS/DSERTS database to the office of the Army Assistant Chief of Staff for
    Installation Management for reporting environmental liabilities on Army financial
    statements. AEC performs quality assurance reviews of the environmental
    liabilities estimating process.

Control Over DERP Active Installation Related
  Environmental Liabilities
    The process used by the Army to develop, review, approve, and forward the
    DERP active installation environmental liabilities on the financial statements had
    material internal control weaknesses. Material internal control weaknesses
    included a lack of adequate audit trails and supporting documentation,
    documented supervisory reviews, and effective AEC quality control reviews of
    the estimates. Also, internal controls were not in place to ensure consistency
    between the actual estimate and the RCTCS/DESRTS feeder systems from which
    DERP active installation financial data was extracted.

    Audit Trails and Documentation. Adequate documentation and audit trails did
    not exist or were not readily available for 184 of 231 estimates reviewed for
    DERP environmental restoration for active and closed ranges. The lack of audit
    trails and supporting documentation occurred because staff at installations was
    not aware or did not follow the requirements to maintain adequate documentation
    and audit trails in accordance with DERP guidance.

    Documentation Deficiencies. None of 44 Dugway Proving Ground estimates
    and 15 of Camp Edwards estimates reviewed had adequate documentation or a
    formal source tracking process as required by the DERP guidance. All the above
    estimates lacked sufficient narrative to explain the basis of the estimate as
    required by the DERP guidance. Dugway personnel prepared a blanket
    memorandum that made general statements about their estimating process, but did


                                        38
not explain the basis of individual estimates. Camp Edwards personnel stated that
estimates were prepared using mostly historical knowledge with no references to
documentation. Staff at Dugway and Camp Edwards were either unaware or did
not follow the requirements to maintain adequate documentation and audit trails
in accordance with DERP guidance.

Of 46 Aberdeen Proving Ground estimates reviewed, only 5 had adequate
documentation to support estimates. One example is a $40.3 million estimate
initially calculated through the RACER electronic estimating software. Aberdeen
management reduced the estimate from $40.3 million to $20 million on the
assumption that the amount of remediation needed would be approximately half
the initial requirement. Although the estimator inserted a short memorandum
regarding the revision into the project file, Aberdeen management did not use
RACER software to revise the estimate thus violating DERP guidance that
estimators use electronic estimating software to prepare estimates in the absence
of feasibility studies. Therefore, we were unable to determine if the reduction
was warranted.

Undocumented Estimate Revisions. AEC instructed environmental estimators
at Redstone Arsenal to reduce a FY 2002 environmental liability estimate of
$136.2 million to $102 million. AEC and Redstone reduced the estimates in the
RCTCS/DSERTS supporting database without documentation that explained the
reduction. AEC staff was unaware of the requirements to maintain adequate
documentation and a formal document tracking system to document their review.
Redstone personnel disagreed with the AEC directed reduction. We were unable
to determine whether the reduction was warranted.

Timeliness. We obtained supporting documentation for the 20 Milan Army
Ammunition Plant estimates reviewed. Milan personnel stated that the
documentation was only available because of a three week lead-time provided by
our audit to the site to collect and assemble documentation for audit review.
Milan personnel also stated that they would not have had documentation readily
available if not provided advance notice of audit selection of the estimates
planned for review. Milan staff were aware of the DERP guidance; however, they
only applied the guidance to the estimates we reviewed. Milan personnel noted
that all other site estimates (not selected by the audit) were not ready for review.
The Milan actions were not in compliance with FMR requirements that
documentation must exist at the time of audit.

Consistency with Feeder System. The RCTCS/DSERTS environmental liability
database did not agree with supporting documentation for 163 of 231 estimates
reviewed at six installations. The inconsistency between the feeder system and
the supporting documentation occurred because:

       •   AEC personnel made adjustments to the supporting database after the
           installations finalized the estimates, and

       •   coordination lacked between DERP and BRAC installations and AEC.

Adjustments to Feeder Systems. The supporting RCTCS/DSERTS database did
not agree with 163 of the 231 estimates we reviewed at Aberdeen Proving
Ground, Camp Edwards, Dugway Proving Ground, Milan Army Ammunition


                                    39
Plant, Redstone Arsenal, Rocky Mountain Arsenal and the Military Munitions
Response Plan. According to AEC staff, the RCTCS/DSERTS database did not
match because AEC had made adjustments to the database after the installations
had finalized their estimate.

The supporting RCTCS/DSERTS database did not agree with 28 of the
36 estimates reviewed at Redstone Arsenal. The database did not agree because
AEC instructed Redstone staff, during the December installation action plan
meeting, to make adjustments to the RCTCS/DSERTS database after AEC had
finalized their environmental liability estimates. The adjustments resulted in a 25
percent reduction in estimates. There was no record of the meeting and there was
no supporting documentation for the reduction in estimates. According to staff at
Redstone, AEC stated that no additional backup was needed. In addition, staff at
Redstone concluded that the reduction was clearly budget driven instead of
requirements driven. However, staff at AEC denied that they reduced the
estimates because of budgetary constraints. As result of the meeting, Redstone
staff attempted to go back and properly reflect the adjustments to the estimates
using RACER software. However, Redstone staff was unable to make RACER
software match the RCTCS/DSERTS feeder system database.

Coordination between AEC and the Installation. The supporting
RCTCS/DSERTS database did not agree with 42 of the 44 estimates we reviewed
at Dugway Proving Ground, in part because of a lack of coordination between
Dugway Proving Ground and AEC personnel. Dugway personnel stated that the
utility program provided by AEC to download RACER generated estimates into
RCTCS/DESRTS did not work properly. As a result staff at Dugway would have
to enter the estimates manually and did not have the time or personnel to do so.
According to staff at Dugway, AEC did not provide assistance. Because Dugway
did not report its FY 2002 estimates to AEC, AEC used the Dugway FY 2001
estimates for FY 2002.

The supporting RCTCS/DSERTS database did not match any of 25 estimates
reviewed at Rocky Mountain Arsenal because Arsenal personnel calculated
estimates by program management project through yearly updates of a
1995 feasibility study and did not include the updates into the RCTCS/DESRTS
database.

Other Feeder System Issues. The supporting database did not agree with 13 of
15 estimates we reviewed at Camp Edwards. Staff at Camp Edwards could not
explain 12 of the variances but noted that one of the variances was due to a data
input error. The supporting database also did not match 16 of 20 estimates
reviewed at Milan Army Ammunition Plant. Milan personnel stated that the
estimates did not match because AEC later added management and inflationary
costs to the Milan estimates.

Quality Assurance/Control Program. Although AEC implemented a quality
control program in FY 2002 that included a review of 41 installations, the
program was not effective in ensuring adequate documentation, audit trails, and
supervisory reviews for DERP installations for the FY 2002 Army financial
statements. AEC developed their quality assurance/control program as a result of



                                    40
    deficiencies identified by the Army Audit Agency. The quality assurance
    program included:

           •   reviewing estimates to determine if the estimator used RACER
               software,

           •   determining whether the installation maintained adequate
               documentation,

           •   determining whether the estimate reflected the environmental
               restoration strategy,

           •   determining whether the estimator had proper training, and

           •   determining whether the installation performed and adequate
               supervisory reviews.

    The review showed that of 41 installations, 16 did not use RACER software,
    37 did not have adequate documentation, 19 did not reflect the environmental
    restoration strategy, 8 lacked environmental liability estimation training, and
    7 lacked evidence of supervisory reviews. Although the AEC quality assurance
    review identified the above deficiencies, AEC did not finalize the results of the
    review until late fall 2002. As a result there was little or no effect for the FY
    2002 financial statements on the adequacy of supporting documentation, audit
    trails and documentation of supervisory reviews.

Army DERP Environmental Related Contingent Liability
    The Army reported contingent liabilities for DERP of $1.07 billion on Note 16 as
    of September 30, 2002. The contingent liability was part of the Army DERP
    military munitions response program. Statements of Federal Financial
    Accounting Standards No. 5 state that a contingency is an existing condition, or a
    set of circumstances that involve uncertainty about the possible gain or loss to an
    entity. The Army reported $1.07 billion as a contingent liability because they had
    not completed final inventories for 248 sites and ranges with an initial estimated
    environmental liability of $1.07 billion. The Army determination to report on
    Note 16 appeared based on the uncertainty of the calculation of a final estimate
    amount for the 248 sites and ranges rather than a determination of the probability
    of an environmental liability for military munitions. The Army did report
    $0.625 billion of the environmental liabilities for the DERP military munitions
    response program on Note 14 based on final inventory estimates at 105 sites and
    ranges.


Management Comments on Appendix C
    Army Comment on Audit Trails and Documentation. The Army requested we
    revise selected statements that installation staff were unaware or did not follow
    the requirements of DERP guidance to maintain adequate documentation and



                                        41
audit trails. The Army believed the statements contradicted other report
statements that the estimators were qualified.

Audit Response. We disagree with the Army comment. Although we found
estimators at DERP active installations qualified in terms of education and work
experience, installation staff was not consistently aware of the current DERP
guidance.

Army Comment on Undocumented Estimate Revisions. The Army disagreed
with report statements regarding AEC instructions to Redstone Arsenal and AEC
lack of awareness of the requirements to maintain adequate documentation of
estimate revisions.

Audit Response. Redstone Arsenal correspondence to AEC regarding the
Redstone Arsenal installation action plan clearly showed a lack of awareness
regarding the requirement to maintain adequate documentation on the part of
AEC staff and Redstone Arsenal staff concern for the lack of documentation.
Interviews with Redstone Arsenal and AEC staff supported the conclusion that
AEC staff involved in the revisions was not aware of the requirements to maintain
adequate documentation.

Army Comment on Adjustments to Feeder Systems. The Army disagreed with
a draft report statement that AEC attempted to adjust estimates using RACER
software to match the RCTCS/DSERTS database. The Army stated that AEC
feeder system adjustments were made in consultation and approval with the
installations.

Audit Response. We revised the report to clarify the circumstances regarding
AEC adjustments made to the RCTCS/DSERTS database.

Army Comment on Army DERP Environmental Related Contingent
Liability. The Army suggested revision of draft report language regarding buried
military munitions and relating to the official title of the Military Munitions
Response Program.

Audit Response. We revised the report to reflect the Army comments.




                                    42
Appendix D. Army DERP-FUDS Environmental
            Liabilities

DERP-FUDS Organization
    Environmental restoration FUDS is a DoD program with the Army as the
    executive agent. FUDS are properties that the DoD once owned or used and no
    longer control, but DoD has the responsibility to restore for use. Examples of
    properties are: privately owned farms, National Parks, residential areas, schools,
    colleges, and industrial areas. FUDS include former Army, Navy, Air Force, or
    Defense agency properties. The U.S. Army Corps of Engineers (Corps of
    Engineers) is the manager for the DERP-FUDS program.

    Development and Review FUDS Estimates. Individual Corps of Engineers
    districts, with the aid of contract personnel and the Omaha Center, develop and
    review FUDS environmental cost-to-complete estimates. The estimates are the
    basis for FUDS related environmental liability reported on Army and DoD-wide
    financial statements. FUDS estimates are made for Hazardous Toxic Radioactive
    Waste (HTRW) projects and ordnance and explosive waste (OEW) projects.
    District and contract personnel develop HTRW project estimates, while Omaha
    Center personnel develop OEW estimates. Both HTRW and OEW projects are
    based on application of the RACER electronic cost estimating model or detailed
    engineering estimates. Once the estimates are developed and reviewed, they are
    entered into the FUDSMIS through electronic uploads by the Corps of Engineers
    Vicksburg office or by manual input by individual district office FUDS program
    managers. The FUDSMIS is a Corps of Engineers program development and
    program management tool used to capture FUDS property, project, and phase
    data.

    Each November Headquarters, Corps of Engineers, personnel query FUDSMIS to
    identify all appropriate cost-to-complete data that should be included in the
    financial statements and forward the data to the Assistant Chief of Staff for
    Installation Management. Assistant Chief of Staff for Installation Management
    personnel initiate a limited quality assurance check on the data and verify that the
    data provided match other supporting data. Once verified, Assistant Chief of
    Staff for Installation Management personnel forwarded the data to the Assistant
    Secretary of the Army (Financial Management and Comptroller) for inclusion on
    the Army-wide financial statement.

Control Over FUDS Related Environmental Liabilities
    The process used by the Corps of Engineers to develop, review, approve, and
    record FUDS related environmental liability on the financial statements had
    material internal control weaknesses. Material internal control weaknesses
    included a lack of adequate audit trails and supporting documentation,
    documented supervisory reviews, consistency between the actual estimate and the



                                         43
           FUDSMIS feeder system from which financial data was extracted, and district
           and division level quality control reviews of the estimates.

           Audit Trails and Documentation. Audit trails for 299 of 300 FUDS estimates
           reviewed were nonexistent; however, documentation supporting various factors of
           the estimates were found. Although documentation supporting various factors of
           the estimates was found, the documentation was not readily available at the Corps
           of Engineers districts or could not be followed.1 Because the Corps of Engineers
           districts did not maintain adequate audit trails or adequate supporting
           documentation, we were unable to recreate or trace the estimate from
           documentation to the financial statement or from the financial statement to
           documentation, as required by the FMR.

           For 78 of the 300 projects reviewed, either the environmental liability estimate or
           the related FUDS property project file could not be located. Estimates were not
           updated to current year dollars for 36 of the 78 estimates, as is required by the
           FMR, DERP, and FUDS guidance. For example, Louisville and Omaha district
           personnel did not update 23 estimates (11 at Louisville District and 12 at Omaha
           District) valued at approximately $387 million to current year dollars. According
           to several FUDS program managers, the districts were aware of which projects
           will be reviewed by the Omaha Center during its quality assurance review and
           only updated those estimates to current year dollars. In addition, the districts
           could not locate FUDS property project documentation to determine whether a
           current dollar estimate had been completed for the remaining 42 estimates.

           None of the 25 RACER generated FY 2002 Sacramento District HTRW estimates
           selected were available for review. Sacramento District personnel stated that an
           electronic file of the FY 2002 estimates was overwritten with the FY 2003
           estimates in order to save computer memory space. The Sacramento District
           neither maintained a hard copy nor saved the FY 2002 HTRW estimates before
           overwriting them.2 To ensure the Sacramento District electronically maintains
           future annual estimates (FY 2003 and beyond), the district purchased a new CD
           write-able computer. In addition, the Sacramento District was unable to provide
           either the estimate or the project file documentation for a project with a FY 2002
           FUDSMIS entry of $892,000. Both district and division personnel stated that
           there is no supporting justification for this project and that this project exists only
           within FUDSMIS.

           The Kansas City District was unable to provide adequate supporting
           documentation for three projects with a combined FUDSMIS value of
           approximately $248 million, which represented approximately 33 percent of the
           district’s total reported environmental liability. Kansas City District supporting
           documentation consisted of an August 2001 engineering estimate for three
           estimates that the district had not updated to current year costs. The engineering


1
    To evaluate the adequacy of the documentation supporting the estimate, we selected 3 significant data
    factors of the 45 that affect the cost to complete estimate and determined whether project file
    documentation existed to support these factors in the estimate.
2
    We conducted a limited review of project file documentation for two Sacramento District FY 2003
    estimates and found that the file supporting documentation was available and detailed.



                                                      44
estimate showed a combined value of approximately $56 million, which left
$192 million of the reported environmental estimate unsupported.

Headquarters, Corps of Engineers personnel were unable to provide supporting
documentation for $1.1 billion in management and support costs included in the
FUDS related environmental liability reported on the financial statements.

Supervisory Reviews. Corps of Engineers districts neither adequately performed
nor documented supervisory reviews of the 300 FUDS estimates. FUDS
guidance requires districts to perform supervisory reviews of estimates and to use
a checklist to ensure a complete and consistent review. For contractor developed
estimates, all districts visited relied upon the Omaha Center to perform a detailed
review of the assumptions and methodologies used to develop the estimate, and
the districts performed a programmatic review to ensure cost allocations met
proposed fiscal year budgets. The Omaha Center review focused on verifying
that Corps of Engineers, Vicksburg, electronically uploaded the data into the
FUDSMIS database matched the estimate to the database and verified that all
estimate project phases were included. Since districts maintained FUDS property
project files and detailed knowledge of the project, each district had the
responsibility to validate the quantities, unit prices, assumptions, and
methodologies used in the estimate. The districts reviews did not validate these
items but only determined that the estimate was allocated in accordance with the
district proposed funding levels. Districts did not document reviews performed.

Three districts developed project estimates that were not warranted. Fort Worth,
Jacksonville, and Los Angeles district personnel developed estimates for projects
that had been designated as “No Defense Action Indicated,” which did not require
an estimate for financial reporting. DERP guidance requires that a Risk
Assessment Code score be given to all eligible FUDS OEW properties. The Risk
Assessment Codes range from 1 through 5. Projects with a Risk Assessment
Code score of 1 through 4 required DoD site restoration and an estimate. Projects
with Risk Assessment Code score of 5 were designated as “No Defense Action
Indicated” and did not require DoD site restoration. Fort Worth, Jacksonville,
and Los Angeles district, developed estimates for 17 projects valued at
approximately $93 million with Risk Assessment Code scores of 5. A
supervisory review would have identified that the 17 estimates had been
incorrectly developed and were not required. Adequate and documented
supervisory reviews of estimates, as required by the FMR, DERP, and FUDS
guidance, would have identified unnecessary estimates and would have
eliminated potential environmental liability overstatements.

Consistency with Feeder System. The Corps of Engineers did not have
adequate internal controls in place to ensure that accurate data were input into
FUDSMIS. The FUDSMIS feeder system is the principal source of data for
reporting the FUDS related environmental liability on the DoD financial
statements. The accuracy of data input into FUDSMIS is essential to the
reliability of the information reported on the financial statements. Our review
consisted of 300 estimates, 78 did not have either the 2002 estimate or the project
file documentation available; therefore, the data in FUDSMIS could not be
validated. The FUDSMIS entries for the 300 estimates were valued at
approximately $5.9 billion; although, the districts could only provide
documentation to support approximately $4.2 billion. The district personnel


                                    45
could not explain why the estimates did not match FUDSMIS and what
represented the $1.7 billion difference.

An additional discrepancy between estimates and FUDSMIS occurred with
project closeout costs. Once it is determined that DoD has no further liability at a
specific HTRW project site, project closeout costs are incurred while securing
concurrence from the appropriate regulatory agency. Generally the project
closeout costs range from $3,000-$6,000 per project. Both in-house and
contractor-developed HTRW estimates included project closeout costs; however,
in FY 2002 these costs were not recorded in FUDSMIS for the projects. The
project closeout cost amounts were not included in FUDSMIS because
Headquarters Corps of Engineers FUDS Program personnel decided that project
closeout costs would not be entered into FUDSMIS until the project was officially
classified as a “No Defense Action Indicated.” The project closeout costs should
have been included in FUDSMIS because gaining concurrence from regulatory
agencies in the future is required to close out a project. For FY 2003 estimates,
Headquarters Corps of Engineers FUDS Program personnel reversed their earlier
decision and will include project closeout costs in FUDSMIS.

Quality Assurance/Control Program. Corps of Engineers districts and
divisions did not implement quality control programs to ensure the reliability and
accuracy of the estimates. The FUDS guidance requires both district and division
to conduct quality assurance and quality control reviews of the estimates. Each
district and division visited, except Louisville, stated that no district or division
level quality control program was in place because reliance was placed on the
Omaha Center to perform the quality assurance and quality control function for
the districts. However, the Omaha Center performed a quality assurance function
only after the estimates were developed, forwarded, and reported on the financial
statement. The Omaha Center quality assurance reviews were limited reviews of
the estimates and of the project file documentation to determine the existence,
valuation, and completeness of individual estimates and project files. Because of
funding constraints, the Omaha Center performed the quality assurance reviews
only periodically and only on a limited number of projects. In FY 2002 the
Omaha Center conducted a Technical Assistance Review at each of the 8 districts
we visited and reviewed 113 of the 300 estimates we reviewed. The Omaha
Center provided the districts and divisions with Technical Assistance Reports that
outlined the results of the reviews and necessary recommendations. The district
needs to develop an effective quality control program to assess the reliability of
the processes and controls used to develop, approve, and forward the estimates
before the estimates are reported. (See recommendation A.2.b.) Instituting a
district and division level quality control process will allow the Corps of
Engineers to detect weaknesses in the internal controls before the forwarding and
reporting of the environmental liability related to FUDS. Weaknesses that would
have been detected if the districts and divisions had a quality control program
included:

       •   missing project file documentation,

       •   completing estimates for non-existing projects,




                                     46
           •   estimates that did not match the FUDSMIS entries, and

           •   estimates not updated to current year dollars.

    Although the districts and divisions stated they relied upon the Omaha Center to
    perform its quality control reviews, the districts did not always implement the
    recommendations made by the Omaha Center. For instance, a 2002 Omaha
    Center Technical Assistance Report for the Kansas City District recommended
    that the district delete the estimate information in FUDSMIS for an estimate
    valued at $4.5 million. However, the district did not delete the estimate
    information from FUDSMIS and consequently the estimate was included as part
    of the FY 2002 FUDS reported environmental liability.

    Finally, because the Corps of Engineers districts and divisions did not have an
    effective quality control program, errors and inconsistencies in the estimates were
    not identified and corrected before districts presented them for reporting on the
    financial statements.


Conclusion
    The review of 300 FUDS projects identified material internal control weaknesses
    over the process used by the Corps of Engineers to develop, review, approve, and
    record FUDS related environmental liabilities on the financial statements.
    Specifically, Corps of Engineers lacked adequate audit trails and supporting
    documentation, supervisory reviews, district and division level quality control
    programs, and the consistent entry of the estimates into FUDSMIS. These
    weaknesses resulted in the following:

           •   estimates not supported by project file documentation,

           •   documentation that was either missing or not readily available,

           •   estimates not updated to current year costs, and

           •   estimates not entered into FUDSMIS correctly.

    As a result, FUDS related environmental liabilities reported on the financial
    statements were potentially misstated.




                                        47
Management Actions
    FUDS Information Improvement Plan. In an effort to improve identified
    material internal control weaknesses within the FUDS program, the Corps of
    Engineers is in the process of developing the FUDS Information Improvement
    Plan (Improvement Plan). The goal of the Improvement Plan is to ensure that all
    FUDS properties and projects are documented and maintained in accordance with
    DoD and Corps of Engineers policies and regulations. The plan addresses the
    review, correction, and validation of FUDS files; information contained in those
    files; and the summary representation of property and project information into
    FUDSMIS. Furthermore, the Improvement Plan includes guidance to ensure that
    the FUDS estimates are:

           •   properly developed and reviewed for quality, technical adequacy,
               reasonableness;

           •   properly documented to support the estimate; and

           •   consistent with FUDSMIS estimate entries.

    Specifically, the Improvement Plan includes a process to ensure that FUDS work
    documents and data exist, are adequate, are complete, are readily available and
    clearly support property/project decisions. The plan assigns responsibility and
    specific tasks required to fully attain the goals of the Improvement Plan to
    Headquarters, Corps of Engineers, Major Subordinate Commands, Corps of
    Engineers districts, and Centers of Expertise. The Corps of Engineers currently
    plans to implement the plan at Major Subordinate Command and district levels in
    April 2004 and plan to have the entire FUDS inventory of properties and projects
    meet the minimum standards of both the DoD and Corps of Engineers by the end
    of FY 2009. The Improvement Plan appears to address several areas of concern
    identified in this report.


Management Comments on Appendix D
    Army Comments on Audit Trails and Documentation. The Army disagreed
    with several statements included in examples of limited audit trails and
    documentation for FUDS environmental liability estimates. The Army stated that
    documentation existed at the Omaha Center. The Army also stated that the audit
    implied that an HTRW project was “made up.” The Army noted that a missing
    project file connected to the project would be reconstructed. The Army stated
    that the $1.1 billion of environmental liability management and support costs was
    part of an overall $1.5 billion management and support cost package, but stated
    that it could not address the lack of documentation of the $1.1 billion in
    environmental liability management and support costs until provided a better
    description.




                                       48
Audit Response. As noted in detail in the report and in our response to Army
comments on Finding A, Omaha Center documentation was not adequate to
support an effective audit trail as defined by the FMR.

The report notes that the HTRW project identified appeared to “exist only within
FUDSMIS.” When asked about the project, both the Sacramento District and
division personnel stated that neither project file documentation nor an estimate
existed. The district program manager stated that the HTRW project seemed to
exist only within FUDSMIS because there was no supporting documentation for
it. According to the district’s FUDS program analyst, the district requested that
the project be removed from FUDSMIS.

We made multiple requests to Corps of Engineers Headquarters personnel to
support the $1.1 billion in environmental liability management and support costs
reported for FY 2002. The Corps of Engineers Headquarters FUDS Project Team
Leader stated that supporting documentation for the FY 2002 management and
support costs could not be located. It remains the clear responsibility of the Army
and the Corps of Engineers to have adequate supporting documentation for a key
monetary component of the environmental liabilities portion of the financial
statements.




                                    49
Appendix E. Army BRAC Environmental
            Liabilities

Army BRAC Organization
    BRAC Organization. Environmental cost-to-complete estimates for closed
    bases were prepared at the installation level by installation, contractor, or Corps
    of Engineers personnel. DERP and AEC guidance requires that documentation
    supporting individual estimates be maintained at the installation. DERP and AEC
    guidance also recommend estimators prepare the estimates using the RACER
    electronic cost estimating system where appropriate. The BRAC installation or
    AEC manually entered estimates into the RCTCS/DSERTS database.
    Estimates were sent to the Assistant Chief of Staff for Installation Management
    BRAC Division (BRAC Office) for final review and processing into the DSERTS
    database. The BRAC Office was responsible for providing environmental
    liabilities, through the DSERTS database, to the Assistant Chief of Staff for
    Installation Management Director of Environmental Programs.

    BRAC Environmental Liability Review. We reviewed 143 site cleanup
    estimates at 6 closed installations, Fort Ord, California; Camp Bonneville,
    Washington; Savanna, Illinois; Seneca, New York; Pueblo, Colorado; and Fort
    McClellan, Alabama. The estimates reviewed represented 76 percent of the total
    dollar volume of environmental restoration and unexploded ordnance projects.
    We also reviewed 67 additional site estimates at three of the installations. The
    total value of the 210 reviewed estimates was $718.5 million. The processes and
    data used to report the selected BRAC environmental liabilities were not reliable
    because the Army lacked internal controls to ensure that estimates reported by the
    BRAC Office had audit trails with supporting documentation.

Control Over BRAC Related Environmental Liabilities
    The process used by the Army to review, approve, and forward the BRAC
    environmental liabilities on the financial statements had material internal control
    weaknesses. Material internal control weaknesses included a lack of adequate
    audit trails and supporting documentation, documented supervisory reviews, and
    higher level quality control reviews of the estimates. Also, internal controls were
    not in place to ensure consistency between the actual estimate and the
    RCTCS/DESRTS feeder systems from which BRAC financial data was extracted.

    Camp Bonneville, Fort Ord, Savanna, and Pueblo did not maintain required
    documentation to support installation estimates. Because of the lack of
    supporting documentation for estimates, audit trails were inadequate.
    Furthermore, site estimate changes initiated by the BRAC Office did not have
    supporting documentation and were not reflected in estimate files at the
    installation level.




                                        50
    Seneca and Fort McClellan had evidence of supervisory reviews. For the two
    installations, approved memorandums for the record documented the supervisory
    reviews including assumptions, estimation methods, and calculations used to
    formulate the estimates. The estimator of record and the BRAC Environmental
    Coordinator for the installation approved the memorandums for record. The
    remaining four installations did not provide evidence of supervisory reviews of
    the estimates. These installations considered the submittal of the estimates to
    higher-level management as a form of supervisory review.

    AEC conducted quality assurance reviews on behalf of ACSIM and the BRAC
    Office. We found AEC quality assurance reviews for the Fort Ord, Pueblo,
    Seneca, and Fort McClellan installations inadequate. However, we found
    discrepancies between our findings and the AEC reviews. We determined that
    Fort Ord cleanup sites FTO-39 and FTO-55B did not have adequate
    documentation whereas the AEC review states adequate documentation was
    provided. The BRAC Office neither performed quality assurance reviews of the
    installations nor took formal action concerning the AEC findings.

BRAC Issues
    BRAC officials failed to recognize the most probable environmental liabilities in
    FY 2002 financial statements as required by the Chief Financial Officers Act of
    1990. The most probable liability estimates were constrained or omitted in
    various ways by the BRAC Office. A liability is defined, by the Federal
    Accounting Standards Advisory Board, to be a probable future outflow or other
    sacrifice of resources because of past transactions or events. Statement of Federal
    Financial Accounting Standards No. 6 defines probable to be that which can
    reasonably be expected or believed to be more likely than not on the basis of
    available evidence or logic but which is neither certain nor proven.

    The BRAC Office understated FY 2002 environmental liability estimates by
    approximately $382 million based on funding constraints. DoD FMR 7000.14-R,
    volume 4, chapter 14, states that availability of funds should not determine
    estimates. The BRAC Office applied predetermined criteria that included ceiling
    constraints, thus limiting the total liability recognized. Based on the constraints,
    BRAC officials either encouraged installations to revise estimates using a more
    optimistic approach or changed site estimates without verifiable justification.
    Also, a written explanation for changes to the estimates was not provided to the
    installations. For the 210 BRAC estimates reviewed by this audit, estimates
    submitted by BRAC installations to the BRAC Office totaled approximately
    $1,100.8 million. However, the reported FY 2002 liability total for the 210
    estimates was $718.5 million. The use of budgetary constraints for reporting
    FY 2002 environmental liabilities was in violation of the DoD FMR.

    A BRAC official expressed in an August 2002 e-mail to the field offices that in
    addition to cost cuts already made, program increases needed to be reviewed and
    innovative solutions needed to be developed to reduce the environmental liability.
    Furthermore, other BRAC Office personnel stated to the audit team that the
    reported BRAC environmental liability should not exceed $1 billion for various
    reasons, including:



                                         51
       •   BRAC officials perceive that taxpayers view a nonreduction in
           liability from year to year as a lack of return on investment.

       •   The BRAC official felt that the Army could not be asked to invest
           dollars in a program where the requirements growth outpaced the
           requirements successfully completed in any given fiscal year. He
           informed the installations that another view of the problem occurs
           because the environmental liability was not reduced even with a
           $150-$300 million annual investment that currently totals $2.1 billion
           spent to date.

The Army reported a total BRAC environmental liability of $1.01 billion in the
FY 2002 financial statements. The methods used by the BRAC Office to reduce
installation estimates included requesting a more optimistic cost assumption, use
of an inappropriate cleanup strategy, reporting FY 2001 estimates instead of
FY 2002 estimates, and allowing submitted projects to be omitted in the FY 2002
financial statements.

Optimistic Cost Assumption. In an August 14, 2002 email, a BRAC field office
official instructed three installations (Pueblo, Seneca, and Savanna) to revise their
initial FY 2002 environmental liability estimates to “not include worst-case or
regulatory driven overstatements of what we need.” One of the installations
submitted revised estimates stating, “now that we have gotten optimistic for you, I
can only hope the same enthusiasm and sympathy is available if we do not obtain
these optimistic cost assumptions.” Pressure on installations from higher-level
management to constrain FY 2002 environmental liability estimates resulted in
the reduction of estimates.

Inappropriate Cleanup Strategy. The BRAC estimated cleanup costs were
understated by as much as $223 million on the Army FY 2002 financial statement
for site SVAD-013, Old Burning Ground at Savanna Army Depot. The current
environmental liability using the Army cleanup strategy for the Old Burning
Ground was manually estimated at $35 million. The BRAC environmental
coordinator for Savanna, discussed the issue with state and Federal
Environmental Protection Agency regulators, the Army Explosives Safety Board,
the Army Corps of Engineers, and the AEC. All agreed that the BRAC Office
proposed approach was unsatisfactory and would not alleviate the Army liability
for the site. An agreeable approach among all the regulators listed above and the
installation was estimated at $258 million by RACER.

Use of FY 2001 Estimates Instead of FY 2002. The BRAC Office instructed
two installations, Fort McClellan and Seneca to use FY 2001 environmental
liability estimates as their FY 2002 reported estimates. The preferred Army
estimating tool, RACER, or Engineering Evaluation/Cost Analysis developed the
basis for FY 2002 installation estimates before reverting to FY 2001 estimates.
This direction resulted in an understatement of as much as $65.6 million.

Environmental Liabilities Omission. An understatement of $3.2 million
resulted from environmental liability estimates omitted from the FY 2002
financial statements. Two of the six installations, Savanna and Fort McClellan
submitted their FY 2002 estimates used in RCTCS/DSERTS or faxed to higher-


                                     52
    level management. Neither the installations nor the headquarters BRAC Office
    could explain why the liabilities submitted were not included in the FY 2002
    financial statements. Because of the omissions, reported environmental liabilities
    were understated for FY 2002 financial statements.

    The BRAC Office did not adhere to the DoD FMR when FY 2002 environmental
    liabilities were reduced to reflect budgetary constraints. The potential
    understatement of FY 2002 environmental liabilities is approximately
    $382 million.


Management Comments on Appendix E
    Army Comments on Most Probable Environmental Liabilities. The Army
    disagreed with report statements that BRAC officials failed to recognize the most
    probable environmental liabilities in the FY 2002 financial statements. The Army
    stated that the BRAC Office reviewed and made changes to BRAC installation
    environmental cost-to-complete estimates based on what the BRAC Office
    believed was the most likely remediation scenario. The Army also stated that
    BRAC Office review decisions were made in coordination with the field offices,
    installations, and AEC, and were within the program manager’s discretion to
    direct BRAC implementation strategies.

    Audit Response. We disagree with the Army comments regarding BRAC Office
    review and modification of the environmental estimates. As stated in
    Appendix E, estimates, as modified by the BRAC Office, did not have supporting
    documentation and were not reflected by the environmental estimate files at
    installation level. For example, the BRAC Office changed the Fort McClellan
    estimates submitted by the installation for FY 2002 to the a lower FY 2001
    estimate without coordination or the concurrence of installation personnel.

    Army Comments on Budget Constraints. The Army disagreed that BRAC
    Office personnel stated to the audit team that the BRAC environmental liability
    should not exceed $1 billion. The Army stated that BRAC Office personnel
    explained to the audit team that the BRAC environmental liability remained at
    $1 billion in spite of $150 million to $300 million in annual investments and that
    this resulted in increased BRAC Office scrutiny over FY 2002 estimates.
    Audit Response. We disagree that a desire to show progress in reducing
    environmental liabilities merely lead to increased scrutiny. In an October 2,
    2003, meeting with the auditors, a BRAC Office official twice stated that funding
    and the budget were a factor in developing Army environmental liability
    estimates. At a subsequent meeting, other BRAC Office officials stated that the
    goal was to limit each year’s reporting of environmental liabilities to the
    $1 billion threshold for “psychological” reasons. In an August 13, 2002, e-mail to
    BRAC field offices and installations, a BRAC Office official stated that if
    reporting of environmental liabilities is not decreased from one year to the next,
    the BRAC Office is not achieving any return on its investment, and therefore, is
    not managing the BRAC program effectively.




                                        53
Army Comments on Optimistic Cost Assumption. The Army stated that the
report implied that the BRAC program should be using worst-case scenarios and
regulatory driven requirements for estimates rather than the most probable
environmental liabilities. The Army stated that Environmental Protection Agency
and/or state environmental regulatory bodies would request more extensive and
expensive remediation than that required by law. In such cases, the Army stated,
the BRAC Office would direct installations to pursue a more cost-effective
remedial solution.

Audit Response. We disagree that the report implies the Army should be using
worst-case scenarios. The objective of the audit was to determine the reliability
of the data and processes used to report environmental liability estimates, not to
determine the appropriate scenario for installation cleanup. The term “optimistic
cost assumption” was used by a BRAC installation to respond to a BRAC Office
e-mail sent to all installations to encourage the reduction of estimates. We
concluded that installation prepared estimates for FY 2002 environmental liability
reporting were more reliable than the BRAC Office estimates based on
installation documentation and installation explanation of the estimating process.
We made no judgment regarding whether Environmental Protection Agency
and/or State environmental regulatory remediation requirements were more
extensive or expensive than required. However, no documentation existed to
support the BRAC Office decisions to replace the installation estimates.

Army Comments on Inappropriate Cleanup Strategy. The Army disagreed
with report statements that estimated cleanup costs were understated by as much
as $223 million for site SVAD-013, Old Burning Ground at Savanna Army
Depot. The Army stated that the $258 million installation estimate was a worst-
case cost estimate that involved wide-scale excavation of an island in the
Mississippi River. The Army noted that the Environmental Protection Agency
and the State would prefer the more wide-scale excavation, but they understood
that there were risk-management options available that provided a more cost-
effective alternative.

Audit Response. We disagree with the Army view that the BRAC Office
cleanup strategy for site SVAD-013 is a cost-effective alternative and consider
the strategy unacceptable. The BRAC Office site SVAD-013 cleanup strategy is
inappropriate and provides insufficient cleanup. The following items do not
support the BRAC Office position:
       •   Savanna Army Depot e-mails noted that the Savanna environmental
           coordinator repeatedly warned the BRAC Office about problems
           (human health risk, ecological risk, unexploded ordinance, and
           potential chemical warfare material) and congressional interest in the
           cleanup.

       •   As noted in the report, various Federal, State, and DoD organizations
           expressed concerns with the BRAC Office remedial solution for site
           SVAD-013. For example, an AEC environmental engineer
           commented that the BRAC Office strategy to cover the site with rocks
           was not a fix and “does not deal with the degradation of the water.”



                                    54
       •   The BRAC Office sent a contractor to Savanna Army Depot to assist
           the BRAC environmental coordinator in preparing the FY 2002
           estimates using the RACER estimating model. The RACER cost-to-
           complete estimate for site SVAD-013 was $258 million. Instead of
           reporting this amount for the Savanna FY 2002 environmental
           liability, the BRAC Office calculated a non-RACER estimate of
           $35 million. The Savanna BRAC environmental coordinator stated
           that the RACER estimate was more accurate than the BRAC Office
           reported amount. BRAC Office officials did not respond to our
           questions whether they directed Savanna to use the non-RACER
           estimate instead of the FY 2002 RACER estimate in reporting the
           FY 2002 submission. The BRAC environmental coordinator stated to
           the auditors that “you are on the right track” when asked whether
           someone from the BRAC Office had instructed the coordinator to not
           use the RACER estimate.

       •   An AEC environmental engineer approved the derivative FY 2001
           estimate in RCTCS under the impression that the BRAC Office
           contractor developed the estimate and that the contractor used the
           RACER estimating model along with “valid” documentation. The
           BRAC National Capitol Region field office also approved the BRAC
           Office version of the Savanna cleanup strategy without reviewing
           supporting documentation.

       •   On September 12, 2003, the BRAC Office declared that they could no
           longer “support” a planned audit revisit to Savanna Army Depot and
           did not respond to our written audit questions concerning site
           SVAD-013. On September 29, 2003, a BRAC Office official stated to
           us that site SVAD-013 was the Army’s most expensive to cleanup and
           the BRAC Office did not want to spend $300 million for the cleanup
           of sites SVAD-013 and SVAD-50. The official offered no details on
           the scope and complexity of the cleanup effort and the impact of the
           site on the environment. We concluded that the BRAC Office
           selection of a cleanup strategy for Savanna was made from a
           budgetary point of view.

       •   AEC did not review documentation for site SVAD-013 on its FY 2002
           quality assurance review of Savanna, even though the estimate for this
           site was well above the $5 million criteria used by AEC for selecting
           sites for review. When the auditors asked why the site was not
           reviewed, the AEC quality assurance official said that he did not
           know.

Army Comments on Use of FY 2001 Estimates Instead of FY 2002. The
Army disagreed that the BRAC Office rejection of FY 2002 estimates at two
installations resulted in an underestimate of Army environmental liabilities. The
Army stated that the installations did not provide sufficient justification for a
change in remediation strategy that resulted in an increased cost estimate. The
Army stated that the BRAC Office thus directed the installations to continue to
pursue the remediation strategy agreed to and documented in the FY 2001 cost
estimate.



                                    55
Audit Response. We disagree with the Army view that the two installations
(Fort McClellan and Seneca Army Depot) did not provide sufficient justification
for a change in remediation strategy that resulted in an increased cost estimate.
As previously stated, we found adequate justification for estimates submitted by
the installations and found no evidence to support BRAC Office changes. The
audit revealed that the BRAC Office reduced FY 2002 estimates for the two
installations without conferring with the respective installation BRAC
environmental coordinator.




                                    56
Appendix F. Army Non-DERP Environmental
            Liabilities

Non-DERP Organization
           The non-DERP program is composed of projects to correct environmental
           problems that are not eligible for funding under the DERP program. Non-DERP
           projects include corrective actions, closures requirements, environmental
           responses at active installations, and low-level radioactive waste. Federal and
           State environmental laws and regulations drive non-DERP environmental project
           requirements. From these laws and regulations, installations develop non-DERP
           project estimates and enter the estimates into the Environmental Program
           Requirements (EPR) database. Office of Environmental Programs personnel
           stated that Class 0, 1, or 2H projects1 are queried from the EPR database and
           placed on the financial statements. The exception to this process is that the non-
           DERP “Other” liability,2 which is reported solely by Rock Island Arsenal, is not
           entered into the EPR database. The “Other” liability is reported directly to the
           Army Comptroller through a memorandum without review by the Major
           Commands or Regions, AEC, or Army Office of Environmental Programs.


Environmental Program Requirements Guidance
           AEC developed three guidance documents for projects entered into the EPR:
           “Policy and Guidance for Identifying U.S. Army Environmental Program
           Requirements,” February 2002; U.S. Army Environmental Program Requirements
           Project Catalog 2002, “A Catalog of Sample EPR Project Submissions and
           Program Guidance,” August 2002; and the EPR Quality Assurance Handbook,
           November 1998.
           Policy and Guidance. The “Policy and Guidance for Identifying U.S. Army
           Environmental Program Requirements,” February 2002, summarizes the DoD and
           Army policy for funding an Army environmental program that ensures and
           promotes environmental stewardship in a cost-effective manner. The guidance
           also outlines for properly identifying and documenting environmental program
           requirements and resource needs.

           Project Catalog. U.S. Army Environmental Program Requirements Project
           Catalog 2002, “A Catalog of Sample EPR Project Submissions and Program
           Guidance,” August 2002, provides steps for identifying projects for EPR
           submission, guidance on what to enter into the EPR data fields and what
           information to update on previously entered projects, and sample projects as
           reference when doing submissions.
1
    The Class system is a way to identify funding priority for environmental projects (0, 1, and 2H projects
    are the highest priority projects).
2
    The non-DERP “Other” line item is made up of liabilities regarding low-level radioactive waste.



                                                       57
    Quality Assurance Handbook. The EPR Quality Assurance Handbook,
    November 1998, identifies management uses for EPR data, defines data quality
    metrics, presents the EPR data quality baseline, and provides guidance for
    conducting proper evaluations and managing the quality processes.

Control Over non-DERP Related Environmental Liabilities
    Comprehensive quality control programs were not implemented within the
    non-DERP program to address the internal control weaknesses discussed in the
    following paragraphs including documentation and audit trails, supervisory
    reviews, and quality assurance.

    Documentation and Audit Trails. The inherent risk for a misstatement of non-
    DERP estimates is high because of the lack of documentation. Of the 45 non-
    DERP estimates reviewed, 43 estimates did not have adequate documentation.
    For the two estimates with adequate documentation, the documentation did not
    become adequate until the estimates were close to contract award, which was
    subsequent to the original EPR submission. The control environment does not
    mitigate this risk of estimate misstatement because the supervisory and quality
    assurance reviews do not review source documentation or documentation that
    explains the assumptions and methodology.

    Supervisory Reviews. Non-DERP installations did not consistently implement
    the control of supervisory review before making EPR submissions. Three of the
    six non-DERP installations visited did not have any controls in place to ensure the
    existence, valuation, or completeness of the estimates reported. A fourth
    installation implemented supervisory reviews as a control over reporting,
    however, because there was no standard procedure for supervisory reviews of
    estimates, which resulted in an ineffective internal control. The other two
    installations had adequate controls in place.

    The supervisory reviews of the non-DERP estimates were documented. The EPR
    database has a checkbox function that documents the supervisory review. For
    Rock Island Arsenal, who reports estimates for the “Other” line item, the
    estimates are reported directly to the Army Comptroller via memorandum format
    rather than through the EPR database. This memorandum requires the signature
    of the Director for Safety and Radioactive Waste and was properly documented.

    Quality Assurance. The Office of the Director for Environmental Programs in
    the Army has oversight responsibility for quality assurance reviews to ensure
    compatibility with goals and objectives of Secretary of Defense guidance and
    Army policy and strategy, and for the non-DERP program. AEC developed the
    EPR quality assurance program. The quality assurance program is composed of
    project reviews within the EPR database by installation Major Command or
    Region, AEC, and the Army Office of Environmental Programs. At each level of
    review, personnel are required to complete a field that documents that the project
    has been reviewed. Reviewers are also given the option to “flag” a project for
    review at a higher level. At each level, reviewers can query the project based on
    this field to extract the files that have been flagged at lower levels. Through the
    feeder system, the reviews are sufficiently documented.


                                        58
     The AEC has primary responsibility for conducting functional expert reviews of
     estimates to ensure compliance with all legally mandated requirements and
     deadlines and screening project data for accuracy and completeness. The Quality
     Assurance handbook outlines procedures for conducting technical quality,
     functional quality, and requirements reviews. During FYs 2002 and 2003, AEC
     personnel conducted 279 technical, functional, and requirements-based reviews
     on the projects submitted through the EPR database. These reviews are
     documented in a published annual review report.

     The quality assurance reviews conducted by AEC were generally restricted to the
     information contained within the EPR database and were generally focused on
     ensuring that the projects had correct requirements, quality and accurate data, and
     justified funding purposes. The quality assurance reviews did not review source
     documentation or evaluate the estimate methodology or audit trail, which are
     requirements of the FMR because the quality assurance handbook does not
     require it. The quality assurance reviews in place were not sufficient to ensure
     that the accounting standards outlined in the FMR were met.


Reporting of Environmental Liabilities
     Deputy Under Secretary of Defense (Installations and Environment) personnel
     expressed concern that only a portion of the non-DERP environmental liabilities
     is currently being identified and reported. The financial statements reflect only
     the highest priority projects, which are Class 0, 1, and 2H. The personnel believe
     that there is a risk that other environmental liabilities are present but are not being
     captured or reported.


Financial Reporting Guidance
     Army non-DERP activities did not follow financial reporting guidance and may
     have errantly reported $15.16 million in environmental liabilities, as “Other”
     liability for FY 2002. The FMR states that non-DERP costs on Note 14 of the
     financial statements represent the costs to correct environmental problems that are
     not eligible for funding under the DERP program. The FMR states that line
     1.A.2.d. of Note 14 is entitled “Other,” and covers environmental liabilities that
     are not corrective actions, closure requirements, or environmental responses at
     active ranges. The FMR also requires DoD to recognize contingent liabilities on
     Note 16 if any of the conditions for a liability are not met and there is a
     reasonable possibility for a loss. The Statement of Federal Financial Accounting
     Standards No. 5 states that a contingent liability should be disclosed in the notes
     to the financial statements when one or more of the following conditions are not
     met.

            •   A past event or transaction has occurred.

            •   A future outflow or sacrifice of resources is probable, which is more
                likely than not.



                                           59
       •   The future outflow or sacrifice of recourses is measurable or
           estimable.

The amount reported on the “Other” line item is generated from projects listed on
a spreadsheet from Rock Island Arsenal. Personnel at Rock Island stated they
have not conducted investigations to determine the contamination at each site.
Therefore, without investigating each site, the future outflow of resources is not
measurable or estimable. In the future the Army may be required to disclose
these estimates as contingent liabilities on Note 16.




                                    60
Appendix G. Management Comments on the
            Findings A and B and Audit
            Response

Management Comments on Finding A and Audit Response
    The Army partially agreed with finding A discussion relating to DERP active
    installations, FUDS, and BRAC. The Army generally agreed with finding A as it
    related to non-DERP. The Army agreed that documentation and audit trails
    needed improvement, but included the following comments relating to
    documentation, supervisory reviews, quality assurance reviews, feeder systems,
    and management controls.

    Army Comments on Army Environmental Liability Documentation. The
    Army disagreed with report statements regarding the Rocky Mountain Arsenal
    DERP active installation documentation example noting that reporting rather than
    documentation was the actual issue.

    Although the Army agreed that FUDS documentation and audit trails need
    improvement, they stated that the FUDS cost estimates are reliable and accurate.
    The Army agreed that adequate documentation did not exist at the field level, but
    believed that adequate documentation did exist centrally at the Corps of
    Engineers Omaha Center. Most FUDS estimates were performed by the Omaha
    Center’s “centralized process” and that the audit did not review the centralized
    process or the Omaha Center internal controls. The Omaha Center’s centralized
    process developed consistent and repeatable estimates through upload of
    FUDSMIS data elements into RACER and consistently applying cost estimating
    assumptions.

    The Army agreed that documentation of audit trails were deficient for FY 2002
    BRAC environmental liability estimates and stated that there should be auditable
    environmental cost estimates for financial statements. The Army planned to
    develop installation action plans for any projects extending beyond FY 2005.
    However, the Army objected to report statements that the Army BRAC Office
    adjusted environmental liability estimates because of potential budget constraints.
    The BRAC Office as program manager and the decision maker exercised its
    judgment in reviewing installation prepared estimates and predicting a “most
    likely scenario” to be used for the estimates. Installations did not provide
    sufficient justification for a change in remediation strategy that resulted in
    increases. The Army stated that this sometimes led to BRAC Office disagreement
    with BRAC installation-level estimators.

    The Army agreed with finding statements that non-DERP activities had
    inadequate supporting documentation. By the end of September 2005 AEC
    would ensure installations have adequate supporting non-DERP documentation
    and would maintain the documentation in the Army Environmental Database-
    Cleanup Compliance System.



                                        61
Audit Response. We disagree with the Army comment regarding Rocky
Mountain Arsenal. We concluded that Rocky Mountain Arsenal had no
supporting documentation for an audit trail regarding the conversion of the
program management estimates to the DSERTS site database reported to the
AEC.

An adequate audit trail and sufficient supporting documentation did not exist for
the estimates developed by either the Omaha Center’s, contractor, or district
personnel. We reviewed the Omaha Center’s central process for developing
FUDS estimates. The Omaha Center only had access to raw data inputs from
FUDSMIS in developing OEW project estimates and maintained only FUDSMIS
extracts as documentation of the estimates. Source records and documentation
that support the FUDSMIS extracted data were not maintained at the Omaha
Center. Although centrally developing the estimates does assist with consistency
and reliability, maintaining adequate documentation is also a requirement outlined
in both the FMR and the FUDS Manual. The Omaha Center’s documentation
was not adequate to support an effective audit trail as defined by the FMR. The
FUDS Manual gives individual district FUDS project managers the ultimate
responsibility to develop and report costs in the FUDSMIS. Therefore, all
supporting documentation for the estimates should be located at the individual
district. In addition, DERP guidance requires that supporting documentation exist
at the time of an audit. We believe that an effective audit trail must exist for all
estimates reported on the financial statements no matter what process or method
is used to develop the estimates.

We disagree with the Army comments regarding BRAC Office reviews of
installation estimates. In several instances installation-calculated environmental
liability estimates exceeded reported financial statement amounts. We do not
agree that the installation estimate increases resulted from a change in
remediation strategy but rather were a more accurate estimate of existing
strategies. The auditors requested but did not receive documentation of the
remediation strategy reviews performed by the BRAC Office. Based on verbal
and e-mail comments by BRAC Office and installation officials, we maintain that
Army BRAC estimates were influenced by budget and funding constraints. We
provided further details on this issue in our Appendix E response to Army
comments.

Army Comments on Supervisory Reviews. The Army stated that signed
installation action plans served as documentation of supervisory review. The
Army questioned whether an example for Aberdeen Proving Grounds reflected a
lack of an active installation supervisory review. The Army partially agreed that
FUDS activities had inadequate supervisory review documentation. The Army
believed that the term “supervisory review” was too restrictive, and that FUDS
district project managers are more qualified to review estimates, rather than the
cost estimator’s direct supervisor because the project manager has more
knowledge about project details. The Army agreed that non-DERP activities have
inadequate documentation of supervisory reviews. The Army stated that non-
DERP activities will be included in installation action plans and the signed copy
of the plan will be documentation of supervisory review. Beginning in FY 2004 a
supervisory review checklist will be included in the installation action plans to



                                    62
document the review of DERP active installation and non-DERP liability
estimates. The Army is drafting a checklist to document FUDS reviews.

Audit Response. Although installation and AEC management do approve DERP
installation action plans, the approval process does not include verification of
critical elements such as supporting documentation and audit trail. DERP active
installation personnel stated to us that the management approval process includes
reviewing the cleanup strategy and whether the installation can perform the
cleanup plan within budget constraints. In response to the Army comments we
revised the Aberdeen Proving Grounds example.

We agree that the Corps of Engineers can designate an official other than the
supervisor of the estimator to perform the supervisory review. However, we
found that district project manager reviews focused solely on a programmatic
review of the estimates to ensure that cost allocation met proposed fiscal year
funding. We believe that the supervisory review must analyze the estimate for
accuracy, completeness, and reasonableness, not just cost allocation.

The planned DERP active installation, FUDS, and non-DERP checklists should
help resolve supervisory review issues and facilitate an appropriate documented
review if the checklist includes review of critical elements such as supporting
documentation and audit trail.

Army Comments on Quality Assurance Reviews. The Army disagreed with
report statements regarding the AEC timing of AEC performed quality assurance
reviews of DERP active installation and BRAC FY 2002 estimates. The Army
stated that the AEC quality assurance reviews took place during the FY 2002 data
call. The Army disagreed with report statements regarding the AEC quality
assurance review of Rocky Mountain Arsenal noting that the AEC had completed
the quality assurance review for the Arsenal. The Army agreed with finding
statements that Army did not implement adequate non-DERP quality assurance
procedures and that the Army did not follow FMR guidance for developing
estimates for non-DERP liabilities. By September 2005, AEC would implement a
non-DERP quality assurance program similar to the DERP and BRAC programs
and would ensure installations achieve appropriate supervisory review and quality
assurance in accordance with the Army Chief Financial Officer strategic plan.

Audit Response. Although the Army performed a quality assurance review of
41 DERP active installation and BRAC estimates reported in FY 2001, AEC did
not complete the last of the 41 reviews until September 2002, a full year after the
Army reported the environmental liability estimates on the FY 2001 financial
statements and just prior to the FY 2002 fiscal year end. Because AEC finalized
the review after the Army reported the estimates the review had little effect on the
FY 2002 financial statements.

Although AEC started a FY 2002 quality assurance review of Rocky Mountain
Arsenal, AEC stopped the review because of a lack of a record trail and crosswalk
between project site and RCTCS site estimates. As noted in the report, AEC did
not include Rocky Mountain Arsenal in its FY 2002 quality assurance review
compilation.




                                     63
Army Comments on Controls Over Feeder Systems. The Army agreed that
that controls over the RCTCS/DSRTS feeder system were inadequate for
FY 2002 BRAC environmental liability estimates. The Army disagreed with
report statements characterizing the non-DERP EPR system as a feeder system.

Audit Response. We consider the EPR to be a feeder system because it is the
source of non-DERP environmental liability data for the Army financial statement
reporting. Based on Army comments we expanded the finding discussion on
feeder systems to discuss the EPR.

Army Comment on Management Corrective Actions. The Army noted that
several specific environmental liability control improvements are presently being
implemented in the Army Chief Financial Officer Strategic Plan, the Army
Environmental Cleanup Strategic Plan, and individual program management
strategic plans for DERP active installations, DERP-FUDS, BRAC and non-
DERP programs. The completion goal for the various strategic plan initiatives
was September 2005. The finding did not address the development of non-DERP
program guidance and the AEC development of the Army Environmental
Database-Cleanup Compliance as the non-DERP feeder system. The Army
planned to implement the new feeder system by the end of September 2005. The
new non-DERP feeder system would allow estimators to revise estimates without
creating a discrepancy with RACER estimates.

Audit Response. Based on the Army comments we revised the management
corrective action discussion to note the development of the new Army non-DERP
program guidance, the new non-DERP feeder system, and environmental liability
control improvements presently being implemented in the Army Chief Financial
Officer Strategic Plan the Army Environmental Cleanup Strategic Plan and
individual program management strategic plans for DERP active installations,
DERP-FUDS, BRAC and non-DERP programs.

Army Comment on Management Controls. The Army disagreed with report
statements that identified a material management control weakness relating to
Army DERP, BRAC, and non-DERP environmental liabilities not being adequate
to ensure the data and processes used by the Army to report environmental
liability estimates on the financial statements were reliable. The Army stated that
in-process corrective actions identified in the Army Chief Financial Officer
Strategic Plan would improve the reliability of data and processes used by the
Army to report environmental liability estimates on annual financial statements.
The Army noted that it was on course to achieve milestones of a qualified opinion
to its annual financial statements in FY 2007 and an unqualified opinion in
FY 2010.

Audit Response. We believe that a material management control weakness
existed at the time of this review relating to relating to Army DERP, BRAC, and
non-DERP environmental liabilities. Army compliance with
Recommendations A.1., A.2., and A.3., including the in-process corrective
actions noted in the report and in the Army management comments, should
alleviate the material management control weaknesses.




                                    64
Management Comments on Finding B and Audit Response
    The Army concurred with finding B but made no further comment. The
    Air Force did not comment on finding B. The Navy made several comments
    relating to the VV&A review of the CTC-NORM system that is addressed below.

    Navy Comments on Electronic Cost Estimating System Guidance. The Navy
    agreed with report statements that the Navy technically complied with existing
    DoD and Navy modeling and simulation requirements. However, the Navy
    disagreed with report statements that the Navy modeling and simulation guidance
    did not include specific requirements for VV&A of modeling systems and that
    risk was increased because the Navy did not update its modeling and simulation
    guidance as required by current DERP guidance. The Navy noted that the
    accreditation effort was well beyond substantial completion prior to the issuance
    of the current DERP guidance on September 28, 2001. The NAVFAC performed
    the VV&A in conjunction with the Navy Model and Simulation Management
    Office to ensure compliance with DoD and Navy instructions. Navy policies and
    procedures are designed to be flexible to address the unique situation of each
    VV&A and that the accreditation authority may tailor the process to meet specific
    requirements and objectives. The report language implied that the Navy should
    have stopped the VV&A process after one year of effort to formalize the policies
    and procedures used to conduct the VV&A. The Navy VV&A process was not
    affected by the issuance of the current DERP guidance, as the guidance does not
    contain any specific or substantive requirements for conducting VV&As.

    Audit Response. We do not consider the 2001 CTCNORM VV&A to be in
    compliance with the current DERP guidance requirements. CTCNORM VV&A
    documentation provided no indication of revising Secretary of the Navy
    Instruction 5200.4 or accompanying Navy Model and Simulation Management
    Office guidance. The report presents the events of the 2001 CTCNORM VV&A
    and makes no explicit or implied comment on the NAVFAC management
    decision to issue a final accreditation of the CTCNORM on October 18, 2001,
    without apparent consideration of the revised DERP guidance issued three weeks
    earlier. Report Recommendation B.1 allows the Navy the opportunity to comply
    with the revised DERP guidance by documenting the revision to its modeling and
    simulation applications policies, procedures, and guidelines to allow performance
    of a VV&A for an environmental liabilities cost estimating system. Although we
    agree the current DERP guidance does not contain specific technical requirements
    for conducting environmental liability cost estimating systems VV&As, it does
    require reviewing and coordinating DoD VV&A policies and procedures, and
    integrating DoD publications into the Component’s program. The guidance also
    requires developing implementation and supplementation documents for DoD
    Instruction 5000.61, and establishing VV&A policies, procedures, and guidelines
    for modeling and simulation applications.

    Navy Comments on Face Validation Method. The Navy disagreed with
    selected report statements regarding the CTCNORM VV&A face validation
    method, noting that the statements gave the impression that the Navy conclusion
    to perform a face validation was flawed. The NAVFAC, in consultation with the
    Navy Model and Simulation Management Office, determined that face validation
    was the only practical means of validation because of the lack of long-term


                                       65
historical data needed to perform a quantitative comparison. The Navy noted a
report statement regarding current environmental liability data not being available
to perform a validated comparison of estimated to actual costs.

Audit Response. The NAVFAC accreditation authority accepted the decision of
the contract accreditation team to perform a face validation based on the
previously stated four risk assessment guidelines. Neither the VV&A report nor
the accompanying VV&A documentation provides any support for the stated
NAVFAC decision to perform a face validation. The audit report statement noted
by the Navy regarding project data not being available to perform a validated
comparison of estimated to actual costs were in fact NAVFAC statements from a
July 24, 2003, NAVFAC memorandum to us. The audit report attributes the
statements to NAVFAC. We did not validate the accuracy of the NAVFAC
statements.

Navy Comments on Accreditation Risk Assessment. The Navy disagreed with
report statements that the risk assessment guidelines used by the CTCNORM
accreditation team were questionable. Beyond the risk assessments used, a low-
risk determination was valid given the relative impact of the CTCNORM tool to
assist in estimating specific project costs. Cleanup projects also involve reliance
on the professional judgment of the estimator for projects that may be executed
several years later. The original estimates would differ from executed costs
because of changes in project requirements. The Navy concluded that isolating
only the impact of the tool to the cost justifies a lower risk.

Audit Response. The CTCNORM accreditation team used only the four
questionable risk assessment guidelines noted in the finding discussion to justify a
relative low impact of the CTCNORM tool. The Navy comments did not attempt
to defend those guidelines but rather offer additional justification. Although we
agree that the use of any environmental cost estimating system requires the
reliance on the professional judgment of a qualified and trained estimator and use
of the best information known at the time of estimate, we disagree that the tool
itself is only a minor factor. Application of a consistent, verified, and validated
environmental cost estimating system tool is essential in providing reliable
estimates. Environmental cost estimating systems should be used to annually
capture new information, including project requirements changes, and to
recalculate resulting cost estimates.




                                    66
Appendix H. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations and Environment)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          67
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        68
Under Secretary of Defense (Comptroller)/Chief
Financial Officer Comments




                      69
Deputy Under Secretary of Defense
(Installations and Environment) Comments




                     70
71
Department of the Army Comments




                    72
                                                                                                                       Final Report
                                                                                                                        Reference




                                                                                                                       *




* The Army is referring to an OIG DoD environmental liabilities best practices working draft provided to, and at the
request of, the Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer to aid in improving
future environmental liability submissions. The OIG DoD will not issue the working draft in final form.



                                                                73
74
                                                                                                                       Final Report
                                                                                                                        Reference




                                                                                                                       *




* The Army is referring to an OIG DoD environmental liabilities best practices working draft provided to, and at the
request of, the Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer to aid in improving
future environmental liability submissions. The OIG DoD will not issue the working draft in final form.



                                                                75
Final Report
 Reference




Revised




               76
77
78
79
Final Report
 Reference




page 44




Revised
page 33
Revised




               80
81
82
     Final Report
      Reference




     Page 38




     Page 39



     Page 39


     Page 39



     Pages 39-40
     Revised


     Deleted



     Page 41
     Revised




83
Final Report
 Reference




Pages 43-44




Page 44


Page 45




Page 51




Pages 51-52




               84
     Final Report
      Reference




     Page 52




     Page 52




     Page 52




85
Department of the Navy Comments




                    86
87
Final Report
 Reference




Page 16


Page 17




Page 16




Page 17




               88
     Final Report
      Reference




     Page 16




     Pages 21-22




89
Final Report
 Reference




Page 20




               90
91
Department of the Air Force Comments




                     92
Team Members
   The Office of the Deputy Inspector General for Auditing of the Department of
   Defense, Contract Management prepared this report. Personnel of the Office of
   the Inspector General of the Department of Defense who contributed to the report
   are listed below.

   David K. Steensma
   Kimberley A. Caprio
   Robert K. West
   Benjamin A. Mehlman
   Rhonda L. Ragsdale
   Bobbie S. Wan
   Michael R. Herbaugh
   Daniel S. Battitori
   Chuck J. Chin
   Robert P. Goldberg
   George P. Marquardt
   Melissa M. McBride
   Joyce S. McCutcheon
   Kevin T. O’Connor
   Robert M. Sacks
   Linh Truong
   Takia A. Matthews
   Cecil B. Tucker
   Chasy L. Miller
   Gwynne M. Roberts
   Christine M. Franks
   Tabitha J. Lemley
   Theresa L. Tameris
